<html>
<title> - H.R. 205, ``HEARTH ACT OF 2011''; & H.R. 2362 ``INDIAN TRIBAL TRADE AND INVESTMENT DEMONSTRATION PROJECT ACT OF 2011''</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




 
 H.R. 205, ``HEARTH ACT OF 2011''; & H.R. 2362 ``INDIAN TRIBAL TRADE 
          AND INVESTMENT DEMONSTRATION PROJECT ACT OF 2011''

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                       SUBCOMMITTEE ON INDIAN AND
                         ALASKA NATIVE AFFAIRS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                       Thursday, November 3, 2011

                               __________

                           Serial No. 112-80

                               __________

       Printed for the use of the Committee on Natural Resources



         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov
      




                  U.S. GOVERNMENT PRINTING OFFICE
71-118                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ee899e81ae8d9b9d9a868b829ec08d8183c0">[email&#160;protected]</a>  


                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
             EDWARD J. MARKEY, MA, Ranking Democrat Member

Don Young, AK                        Dale E. Kildee, MI
John J. Duncan, Jr., TN              Peter A. DeFazio, OR
Louie Gohmert, TX                    Eni F.H. Faleomavaega, AS
Rob Bishop, UT                       Frank Pallone, Jr., NJ
Doug Lamborn, CO                     Grace F. Napolitano, CA
Robert J. Wittman, VA                Rush D. Holt, NJ
Paul C. Broun, GA                    Raul M. Grijalva, AZ
John Fleming, LA                     Madeleine Z. Bordallo, GU
Mike Coffman, CO                     Jim Costa, CA
Tom McClintock, CA                   Dan Boren, OK
Glenn Thompson, PA                   Gregorio Kilili Camacho Sablan, 
Jeff Denham, CA                          CNMI
Dan Benishek, MI                     Martin Heinrich, NM
David Rivera, FL                     Ben Ray Lujan, NM
Jeff Duncan, SC                      John P. Sarbanes, MD
Scott R. Tipton, CO                  Betty Sutton, OH
Paul A. Gosar, AZ                    Niki Tsongas, MA
Raul R. Labrador, ID                 Pedro R. Pierluisi, PR
Kristi L. Noem, SD                   John Garamendi, CA
Steve Southerland II, FL             Colleen W. Hanabusa, HI
Bill Flores, TX                      Vacancy
Andy Harris, MD
Jeffrey M. Landry, LA
Jon Runyan, NJ
Bill Johnson, OH
Mark Amodei, NV

                       Todd Young, Chief of Staff
                      Lisa Pittman, Chief Counsel
                Jeffrey Duncan, Democrat Staff Director
                 David Watkins, Democrat Chief Counsel
                                 ------                                

            SUBCOMMITTEE ON INDIAN AND ALASKA NATIVE AFFAIRS

                        DON YOUNG, AK, Chairman
                 DAN BOREN, OK, Ranking Democrat Member

Tom McClintock, CA                   Dale E. Kildee, MI
Jeff Denham, CA                      Eni F.H. Faleomavaega, AS
Dan Benishek, MI                     Ben Ray Lujan, NM
Paul A. Gosar, AZ                    Colleen W. Hanabusa, HI
Raul R. Labrador, ID                 Edward J. Markey, MA, ex officio
Kristi L. Noem, SD
Doc Hastings, WA, ex officio

                                 ------                                
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Thursday, November 3, 2011.......................     1

Statement of Members:
    Boren, Hon. Dan, a Representative in Congress from the State 
      of Oklahoma................................................     2
        Prepared statement of....................................     3
    Markey, Hon. Edward J., a Representative in Congress from the 
      Commonwealth of Massachusetts, Statement submitted for the 
      record.....................................................    35
    Young, Hon. Don, the Representative in Congress for the State 
      of Alaska..................................................     2
        Prepared statement of....................................     2

Statement of Witnesses:
    Berrey, Hon. John L., Chairman, Business Committee, Quapaw 
      Tribe of Oklahoma..........................................    15
        Prepared statement on H.R. 2362..........................    16
    Black, Hon. Michael S., Director, Bureau of Indian Affairs, 
      U.S. Department of the Interior............................    10
        Prepared statement on H.R. 205...........................    12
        Prepared statement on H.R. 2362..........................    13
    Cole, Hon. Tom, a Representative in Congress from the State 
      of Oklahoma................................................     6
        Prepared statement on H.R. 2362..........................     8
    Heinrich, Hon. Martin, a Representative in Congress from the 
      State of New Mexico........................................     4
        Prepared statement on H.R. 205...........................     5
    McCurdy, Hon. Lincoln, President, Turkish Coalition of 
      America, Inc...............................................    21
        Prepared statement on H.R. 2362..........................    22
    Tortalita, Hon. Floyd, Vice-Chairman, National American 
      Indian Housing Council.....................................    17
        Prepared statement on H.R. 205...........................    19

Additional materials supplied:
    Tan, His Excellency Namik, Ambassador, Republic of Turkey, 
      Letter submitted for the record on H.R. 2362...............    36
    Turkish American Chamber of Commerce and Industry, Letter 
      submitted for the record on H.R. 2362......................    37
                                     



 LEGISLATIVE HEARING ON H.R. 205, TO AMEND THE ACT TITLED ``AN ACT TO 
AUTHORIZE THE LEASING OF RESTRICTED INDIAN LANDS FOR PUBLIC, RELIGIOUS, 
 EDUCATIONAL, RECREATIONAL, RESIDENTIAL, BUSINESS, AND OTHER PURPOSES 
REQUIRING THE GRANT OF LONG-TERM LEASES,'' APPROVED AUGUST 9, 1955, TO 
 PROVIDE FOR INDIAN TRIBES TO ENTER INTO CERTAIN LEASES WITHOUT PRIOR 
 EXPRESS APPROVAL FROM THE SECRETARY OF THE INTERIOR. ``HEARTH ACT OF 
  2011''; AND H.R. 2362, TO FACILITATE ECONOMIC DEVELOPMENT BY INDIAN 
TRIBES AND ENCOURAGE INVESTMENT BY TURKISH ENTERPRISES. ``INDIAN TRIBAL 
       TRADE AND INVESTMENT DEMONSTRATION PROJECT ACT OF 2011.''

                              ----------                              


                       Thursday, November 3, 2011

                     U.S. House of Representatives

            Subcommittee on Indian and Alaska Native Affairs

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 2:54 p.m. in 
Room 1324, Longworth House Office Building, Hon. Don Young 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Young, Boren, Kildee, 
Faleomavaega, and Lujan.
    Also Present: Representative Heinrich.
    Mr. Young. The Subcommittee will come to order. The 
Chairman notes the presence of a quorum, which under Committee 
Rule 3[c] is two Members. Thank you, Mr. Boren, for being here.
    The Subcommittee on Indian and Alaska Native Affairs is 
meeting today to hear testimony on H.R. 205, The HEARTH Act of 
2011, and H.R. 2362, The Indian Tribal Trade and Investment 
Demonstration Project Act of 2011.
    Under Committee Rule 4[f], opening statements are limited 
to the Chairman and Ranking Member of the Subcommittee so we 
can hear from our witnesses more quickly. However, I ask 
unanimous consent to include any other Members' opening 
statements in the hearing record if submitted to the clerk by 
the end of the day. Hearing no objection, so ordered.
    I also ask unanimous consent that the gentleman from New 
Mexico, Mr. Heinrich, be allowed to join us at the dais and 
participate in the hearing. Without any objection, so ordered.

STATEMENT OF HON. DON YOUNG, A REPRESENTATIVE IN CONGRESS FROM 
                      THE STATE OF ALASKA

    Mr. Young. Over the years we continue to hear from tribes 
that it can take months, in some cases years, to approve simple 
lease agreements with the Bureau of Indian Affairs. These long 
delays hurt the tribes' ability to spur economic development 
and create jobs.
    Both of these bills will help tribal governments cut 
through the bureaucratic red tape and allow the tribes to lease 
their lands without approval of the Secretary of the Interior, 
pursuant to tribal regulations approved by the Secretary.
    H.R. 205, entitled ``The HEARTH Act of 2011,'' amends the 
long-term Indian leasing acts so tribes can lease their lands 
for any non-mineral development; and H.R. 2362, ``The Indian 
Tribal Trade and Investment Demonstration Project Act of 
2011,'' creates a pilot project for tribes to participate in 
economic business development with private entities from the 
Republic of Turkey. Both bills are supported from Indian 
country, and I look forward to hearing the testimony of the 
witness.
    If there is no objection, I would like to add the 
Ambassador of the Republic of Turkey's letter in support of 
H.R. 2362. I look forward to hearing from our witness, and I 
now recognize the Ranking Member for five minutes for any 
statement he may have.
    [The prepared statement of Mr. Young follows:]

Statement of The Honorable Don Young, Chairman, Subcommittee on Indian 
          and Alaska Native Affairs, on H.R. 205 and H.R. 2362

    The purpose of today's hearing is to hear testimony on H.R. 205, a 
bill sponsored by Martin Heinrich and H.R. 2362, a bill introduced by 
Tom Cole.
    Over the years, we continue to hear from tribes that it can take 
months and in some cases years to approve simple lease agreements at 
the Bureau of Indian Affairs. These long delays hurt the tribe's 
ability to spur economic development and create jobs. Both of these 
bills will help tribal governments cut through the bureaucratic red 
tape and allow the tribes to lease their lands without approval of the 
Secretary of the Interior, pursuant to tribal regulations approved by 
the Secretary.
    H.R. 205, entitled the ``HEARTH Act of 2011,'' amends the Long Term 
Indian Leasing Act, so that tribes can lease their lands for any non-
mineral development. And H.R. 2362, the ``Indian Tribal Trade and 
Investment Demonstration Project Act of 2011,'' creates a pilot project 
for tribes to participate in economic and business development with 
private entities from the Republic of Turkey. Both bills have support 
from Indian Country and I look forward to hearing the testimony from 
our witnesses. If there is no objection, I would like to add the 
Ambassador of the Republic of Turkey's letter in support of H.R. 2362.
                                 ______
                                 

STATEMENT OF HON. DAN BOREN, A REPRESENTATIVE IN CONGRESS FROM 
                     THE STATE OF OKLAHOMA

    Mr. Boren. Thank you, Mr. Chairman. Today the Subcommittee 
meets to hear testimony on H.R. 205, introduced by Mr. Heinrich 
and co-sponsored by 10 of my colleagues from both sides of the 
aisle.
    H.R. 205, better known as the HEARTH Act, would amend the 
Indian Long-Term Leasing Act of 1955 to give tribes more 
control over their lands. It authorizes sovereign tribes to 
expedite the land-leasing procedure, encouraging investment and 
self-sufficiency.
    Tribes from across Indian country as well as major tribal 
organizations, such as the National American Indian Housing 
Council, have expressed their support for the HEARTH Act. There 
are debilitating limitations of the Indian Long-Term Leasing 
Act that must be addressed. The HEARTH Act is needed in order 
to tackle, among other issues, the long delays currently 
experienced for travel trust land-lease approvals. Allowing 
tribes to make decisions about service leasing will curb these 
delays.
    I am proud to be a co-sponsor of this bill, and I look 
forward to its passage in this Congress.
    Also, my good friend, Mr. Cole--he is not here, he should 
be here shortly--is here today to testify on his bill, H.R. 
2362, the Indian Tribal Trade and Investment Demonstration 
Project Act of 2011. Say that 10 times fast.
    This bill adopts the tribal leasing authority under the 
HEARTH Act and applies them specifically to an economic 
development program with the Republic of Turkey. The bill 
allows no more than six tribes to engage in trade with private 
entities incorporated in the Republic of Turkey. It addresses, 
as Mr. Cole states in his testimony, an archaic leasing system 
in the hopes of encouraging this international partnership.
    I look forward to hearing from Mr. Cole and the witnesses 
here today on how important this important bill will positively 
affect Indian country. As a co-sponsor of both bills, I look 
forward to today's hearing as the first step forward in passing 
this legislation.
    Again, glad to see you, Mr. Heinrich. Mr. Cole should be 
here any minute. And I yield back, Mr. Chairman.
    [The prepared statement of Mr. Boren follows:]

 Statement of The Honorable Dan Boren, Ranking Member, Subcommittee on 
      Indian and Alaska Native Affairs, on H.R. 205 and H.R. 2362

    Thank you, Mr. Chairman.
    Today the Subcommittee meets to hear testimony on H.R. 205, 
introduced by Mr. Heinrich and co-sponsored by ten of my colleagues 
from both sides of the aisle. H.R. 205, better known as the HEARTH Act, 
would amend the Indian Long-Term Leasing Act of 1955 to give tribes 
more control over their lands. It authorizes sovereign tribes to 
expedite the land leasing procedure, encouraging investment and self-
sufficiency.
    Tribes from across Indian country as well as major tribal 
organizations such as the National American Indian Housing Council have 
expressed their support for the HEARTH Act.
    As tribes become more sophisticated in their management 
capabilities, the limitations of the Indian Long-Term Leasing Act must 
be addressed. The HEARTH Act is needed in order to tackle, among other 
issues, the long delays currently experienced for tribal trust land 
lease approvals. Allowing tribes to make decisions about surface 
leasing will curb these delays. I am proud to be a co-sponsor of this 
bill and look forward to its passage this Congress.
    Also, my good friend Mr. Cole is here today to testify on his bill, 
H.R. 2362, the Indian Tribal Trade and Investment Demonstration Project 
of 2011. This bill adopts the tribal leasing authorities under the 
HEARTH Act and applies them specifically to an economic development 
program with the Republic of Turkey. The bill allows no more than six 
tribes to engage in trade with private entities incorporated in the 
Republic of Turkey. It addresses, as Mr. Cole states in his testimony, 
an ``archaic leasing system'' in the hopes of encouraging this 
international partnership.
    I look forward to hearing from Mr. Cole and the witnesses here 
today on how this important bill will positively affect Indian country.
    As a co-sponsor of both bills, I look forward to today's hearing as 
the first step toward passing this legislation. Welcome, Mr. Cole and 
Mr. Heinrich, and welcome to our witnesses. I yield back.
                                 ______
                                 
    Mr. Young. Thank you, gentlemen. And first let me apologize 
to the witnesses for the delay in this hearing. I have no 
control over the votes. If I did, we would run this thing a lot 
faster, I can tell you that right now.
    Mr. Cole is not present but should be here in a moment. But 
we will go ahead with Mr. Heinrich. If you would like to 
testify, Mr. Heinrich, you have five minutes.

STATEMENT OF HON. MARTIN HEINRICH, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF NEW MEXICO

    Mr. Heinrich. Thank you, Chairman Young. And I want to 
thank Ranking Member Boren as well, both of you, for holding 
this hearing on H.R. 205.
    I introduced the HEARTH Act after meeting with several 
housing directors from New Mexico's Pueblos where I learned 
about the owners' process for securing a long-term lease on 
Trust land.
    We all know how important home ownership is to healthy 
communities, and the last thing the Federal Government should 
do is to stand in the way of families who are ready and willing 
to buy a house.
    Native families buying a house go through the same process 
as anyone else: They find a house they like, they work with 
their lender to gain approval for a mortgage, and they make an 
offer to the seller. But before these families can close on the 
sale, they need approval from the Bureau of Indian Affairs to 
lease the land that the house is built on. That approval can 
take between six months and in some cases as long as two years, 
an intolerable delay for most buyers. A seller is rarely able 
to wait two years to sell their house, and banks are often 
unable to hold a mortgage approval for anywhere near that long.
    I know there are many families who would prefer to stay and 
raise their children in the communities where their families 
have lived for generations but instead have moved to nearby 
cities because they want to own a home. Families shouldn't be 
forced to make such an important decision based on how many 
months or years it will take a Federal bureaucracy to approve a 
mortgage on tribal land.
    Similarly, many tribal communities lose out on commercial 
investment because the process for securing a lease through the 
BA can take so long. In these tough economic times, we 
shouldn't be making it harder for businesses to develop on 
tribal land.
    The HEARTH Act would allow tribes to develop their own 
leasing regulations and make leasing decisions on tribal Trust 
at the tribal level rather than waiting for BIA approval. Under 
the bill, tribes would submit their regulations to the 
Secretary of the Interior for approval. Once the regulations 
are approved, tribes would be authorized to make their own 
decisions about how to lease their land in accordance with the 
approved leases.
    This process would be completely voluntary for tribes. A 
tribe that chooses not to submit leasing regulations for 
approval would continue under the current system of BIA lease 
approval.
    Many tribes already have a lease approval process through 
their tribal government that approve land leases before they 
are sent to the BIA. For those tribes that want the authority 
and the responsibility for making final leasing decisions at 
the tribal level, the HEARTH Act would give them the option of 
doing so.
    Our nation is home to a vast diversity of sovereign tribes, 
and Federal policy should reflect that diversity. Some 
questions have been raised regarding the minimum requirements 
outlined in the bill for tribal leasing regulations. Over the 
past few weeks, I have worked with Ranking Member Markey, 
interested tribes and the National American Indian Housing 
Council to agree on a requirement that tribal regulations meet 
or exceed the requirements of the existing BIA regulations on 
leases. This will allow tribes to take charge of their leasing 
programs while ensuring that all tribal regulations meet a 
consistent standard. And I hope that members of this 
Subcommittee will support the addition of this provision.
    The HEARTH Act will allow tribes to exercise greater 
control over their lands, support self-determination and 
eliminate bureaucratic delays that stand in the way of home 
ownership and economic development in tribal communities. I 
urge the Subcommittee's support for this important legislation. 
And thank you, Mr. Chairman, for holding this hearing, and 
thank you to the Subcommittee for consideration of this 
legislation.
    [The prepared statement of Mr. Heinrich follows:]

    Statement of The Honorable Martin Heinrich, a Representative in 
    Congress from the State of New Mexico, on H.R. 205, The Helping 
   Expedite and Advance Responsible Tribal Homeownership Act of 2011

    Thank you, Chairman Young and Ranking Member Boren, for holding 
this hearing on H.R. 205.
    I introduced the HEARTH Act after meeting with several housing 
directors from New Mexico's pueblos where I learned about the onerous 
process for securing a long-term lease on trust land. We all know how 
important homeownership is to healthy communities, and the last thing 
the federal government should do is stand in the way of families ready 
and willing to buy a house.
    Native families buying a house go through the same process as 
anyone else: they find a house they like, work with their bank to gain 
approval for a mortgage, and make an offer to the seller. But before 
these families can close on the sale, they need approval from the 
Bureau of Indian Affairs to lease the land the house is built on. That 
approval can take between six months and two years--an intolerable 
delay for most buyers. A seller is rarely able to wait two years to 
sell their house, and banks are often unable to hold a mortgage 
approval for that long.
    I know there are many families who would prefer to stay and raise 
their children in the communities where their families have lived for 
generations--but instead have moved to nearby cities because they want 
to own a home. Families shouldn't be forced to make such an important 
decision based on how many months or years it will take a federal 
bureaucracy to approve a mortgage on tribal land.
    Similarly, many tribal communities lose out on commercial 
investment because the process for securing a lease through the BIA 
takes so long. In these tough economic times, we should not be making 
it harder for business to develop on tribal land.
    The HEARTH Act would allow tribes to develop their own leasing 
regulations and make leasing decisions on the tribal level, rather than 
waiting for BIA approval. Under the bill, tribes would submit their 
regulations to the Secretary of the Interior for approval. Once the 
regulations are approved, tribes would be authorized to make their own 
decisions about how to lease their land, in accordance with the 
approved leases.
    This process would be completely voluntary for tribes--a tribe that 
chooses not to submit leasing regulations for approval would continue 
under the current system of BIA lease approval. Many tribes already 
have a lease approval process through their tribal government that 
approves land leases before they're sent to BIA. For those tribes that 
want the authority and responsibility for making final leasing 
decisions at the tribal level, the HEARTH Act would give them the 
option of doing so. Our nation is home to a vast diversity of tribes, 
and federal policy should reflect that diversity.
    Some questions have been raised regarding the minimum requirements 
outlined in the bill for tribal leasing regulations. Over the past few 
weeks, I have worked with Ranking Member Markey, interested tribes, and 
the National American Indian Housing Council, to agree on a requirement 
that tribal regulations meet or exceed the requirements of the existing 
BIA regulations on leases.
    This will allow tribes to take charge of their leasing programs 
while ensuring that all tribal regulations meet a consistent standard, 
and I hope that the members of this subcommittee will support the 
addition of this provision.
    The HEARTH Act will allow tribes to exercise greater control over 
their lands, support self-determination, and eliminate bureaucratic 
delays that stand in the way of homeownership and economic development 
in tribal communities. I urge this subcommittee's support for this 
important legislation.
    Thank you, Mr. Chairman, for holding this hearing, and thank you to 
the subcommittee for your consideration of this bill.
                                 ______
                                 
    Mr. Young. I thank the gentleman, Mr. Heinrich, for your 
testimony. You were doing great until you said you have been 
working with Mr. Markey, and I got a little bit concerned there 
for a moment. But I checked with my staff, and apparently you 
have been working with my staff too, so that is a good sign, I 
want to tell you ahead of time.
    Mr. Cole, I do apologize for letting a freshman go ahead of 
you or at least a sophomore go ahead of you, but you weren't 
here. And when you say you snooze, you lose. But, Mr. Chairman, 
I want to thank you for coming before the Committee and 
testifying on your bill.

 STATEMENT OF HON. TOM COLE, A REPRESENTATIVE IN CONGRESS FROM 
                     THE STATE OF OKLAHOMA

    Mr. Cole. Thank you very much. Actually it was a wise 
decision on your part, Mr. Chairman. I got here late and 
without my testimony, which your staff is ably bringing me 
right now, so unprepared as well as late.
    Thank you again, Mr. Chairman. I appreciate very much this 
hearing. Mr. Chairman, Ranking Member Boren, members of the 
Committee, thank you for inviting me today to testify about my 
bill, H.R. 2362, the Indian Tribal Trade and Investment 
Demonstration Project Act of 2011, and my colleague, 
Congressman Heinrich's bill, H.R. 205, the HEARTH Act.
    Addressing ways to grow and sustain economic development on 
tribal lands is an important goal that I continue to work with 
members of this Committee. Statistically Indians are the most 
impoverished group of people in our country and suffer from the 
highest rates of unemployment. Enacting policies to facilitate 
the growth of tribal economies is vital to help alleviate the 
economic malaise facing Indian country.
    The first and most basic step we should take toward this 
goal is making it easier for Indian tribes to use their own 
land. These bills will achieve that goal.
    H.R. 2362 is designed to facilitate U.S. trade with Turkey 
and to help economic development on tribal land. Currently 
economic development on tribal land is hampered by a 
restrictive and archaic leasing system. This system requires 
multiple levels of review, including surveys and thorough 
environmental reviews every time a lease is entered into. At 
the end of that process, even simple leases that could be 
concluded in as little as six days on private land can take up 
to six years to conclude on Trust land.
    It is fitting that the Indian Tribal Trade and Investment 
Demonstration Project Act and the HEARTH Act are being 
considered together today as my bill, H.R. 2362, is based on 
provisions of the HEARTH Act. In fact, if the HEARTH Act is 
enacted, provisions of H.R. 2362 would be facilitated.
    As I am sure you will hear from other witnesses today, the 
HEARTH Act will cut down on the bureaucracy involved with 
leasing and developing land held in trust for Indian tribes. 
These same provisions have applied to the Navajo Tribe for over 
a decade and have helped that tribe with economic development.
    H.R. 2362 is another in a long line of demonstration 
projects being used to evolve Federal policy concerning tribes. 
Over the years there has been a reluctance to implement new 
policies which would affect all Federal tribes. Applying the 
provisions of the HEARTH Act to only the Navajo Nation in 2000 
is only one example. We can find other examples in other areas 
of Indian policy, including self-governance.
    Mr. Chairman, today you are considering two bills, one that 
continues the demonstration model and one that seeks to benefit 
all of Indian country. And while I strongly support my 
legislation, I certainly hope that the HEARTH Act is quickly 
enacted, extending the provisions found in H.R. 2362 to all 
tribes.
    Mr. Chairman, my bill would direct the Secretary of the 
Interior to create a demonstration project for up to six tribes 
or groups of tribes engaged in economic development projects 
with companies based in Turkey. This legislation allows the 
tribes in the program to develop their own guidelines for 
leasing, including provisions to protect the environment.
    The Secretary would then approve those guidelines, and the 
tribes would be allowed to operate under those guidelines 
without required Secretarial approval for every individual 
release. Essentially tribes in the demonstration project would 
then enjoy the same regulatory reforms proposed by the HEARTH 
Act.
    Although the Indian Tribal Trade and Investment 
Demonstration Project would streamline leasing provisions to 
take Secretarial approval out of every lease, the Secretary of 
the Interior retains oversight over the project and retains the 
power to enforce or cancel leases under the project if needed 
to exercise the United States' Trust responsibility to the 
tribes.
    Additionally, as Federal land, Trust land remains subject 
to the United States, the same environmental reviews that all 
Federal lands are subject to. Neither my legislation nor the 
HEARTH Act are attempts to get around environmental regulations 
and exploit the land. Instead, they are efforts to bring 
meaningful change to Indian tribes by allowing them to 
efficiently develop their lands just like non-Indians are 
allowed to do.
    The single most frequently asked question people ask me 
about H.R. 2362 is why Turkey. The answer to that is simple. 
Turkey through their Trade Ministry has shown interest in 
partnering with tribal economies. Turkey sent the first 
delegation from a foreign government to the National Center for 
American Indian Enterprise Development's annual reservation 
economic summit, commonly known as the RES, in 2011.
    People in Turkey have a genuine affinity toward American 
Indians. Many Turks believe that Indians share a common 
ancestry with the Turks dating back millennia. And whether you 
hold this belief or not, there is no denying that many Turks 
want to help Indians.
    H.R. 2362 would capitalize on this affinity to strengthen 
the ties with a key ally and close friend and help struggling 
tribal economies at the same time. For a variety of reasons, 
Mr. Chairman, there is a genuine interest in Native Americans 
in many parts of the world.
    It is my belief that if H.R. 2362 succeeds and innovative 
legislation like the HEARTH Act is passed, other foreign 
governments and corporations may well follow the example of 
Turkey and invest in Indian country. That can only lead to good 
things for Indian country while strengthening America's ties 
with historic allies like Turkey. Progress for our most 
challenged population, Native Americans, is a good thing for 
our country and will have a positive impact for our image 
around the world.
    Mr. Chairman, thank you again for inviting me to testify 
before your Committee on these important bills. These pieces of 
legislation are vital to the development of tribal economies. I 
encourage this Committee to favorably report both the Indian 
Tribal Trade and Investment Demonstration Act and the HEARTH 
Act and move them through the legislative process.
    And with that, I thank you again, Mr. Chairman.
    [The prepared statement of Mr. Cole follows:]

Statement of The Honorable Tom Cole, a Representative in Congress from 
            the State of Oklahoma, on H.R. 205 and H.R. 2362

    Mr. Chairman, Ranking Member Boren, Members of the Committee: thank 
you for inviting me here today to testify on my bill, H.R. 2362 the 
Indian Tribal Trade and Investment Demonstration Project Act of 2011, 
and my colleague Congressman Heinrich's bill H.R. 205 the HEARTH Act. 
Addressing ways to grow and sustain economic development on Tribal 
lands is an important goal that I continue to work on with members of 
this committee. Statistically, Indians are the most impoverished group 
of people in our country and suffer from the highest rates of 
unemployment. Enacting policies to facilitate growth of Tribal 
economies is vital to help alleviate the economic malaise facing 
Indians. The first and most basic step we should take towards that goal 
is making it easier for Indian Tribes to use their own land. These 
bills will achieve that goal.
    H.R. 2362 is designed to facilitate U.S. trade with Turkey and help 
economic development on Tribal land. Currently, economic development on 
Tribal land is hampered by a restrictive and archaic leasing system. 
This system requires multiple levels of review including surveys and 
thorough environmental reviews every time a lease is entered into. At 
the end of that process, even simple leases that could be concluded in 
as little as six days on private land can take up to six years to 
conclude on trust land.
    It is fitting that the Indian Tribal Trade and Investment 
Demonstration Project Act and the HEARTH Act are being considered 
together today, as my bill, H.R. 2362, is based on provisions of the 
HEARTH Act. In fact, if the HEARTH Act is enacted, provisions of H.R. 
2362 would be facilitated. As I am sure you will hear from other 
witnesses today, the HEARTH Act will cut down on the bureaucracy 
involved with leasing and developing land held in trust for Indian 
Tribes. These same provisions have applied to the Navajo tribe for over 
a decade, and have helped that tribe with economic development.
    H.R. 2362 is another in a long line of demonstration projects being 
used to evolve federal policy concerning Tribes. Over the years there 
has been reluctance to implement new policies which would affect all 
federal Tribes. Applying the provisions of the HEARTH act to only the 
Navajo in 2000 is only one example. We can find other examples in other 
areas of Indian policy including self governance. Mr. Chairman, today 
you are considering two bills, one that continues the demonstration 
model and one that seeks to benefit all Indian Tribes. While I strongly 
support my legislation, I hope that the HEARTH Act is quickly enacted 
extending the provisions found in H.R. 2362 to all tribes.
    Mr. Chairman, my bill would direct the Secretary of Interior to 
create a demonstration project for up to six tribes or groups of tribes 
engaged in economic development projects with companies based in 
Turkey. This legislation allows the Tribes in the program to develop 
their own guidelines for leasing, including provisions to protect the 
environment. The Secretary would then approve those guidelines and the 
Tribes would be allowed to operate under those guidelines without 
required Secretarial approval for every individual release. 
Essentially, Tribes in the demonstration project would then enjoy the 
same regulatory reforms proposed in the HEARTH Act.
    Although the Indian Tribal Trade and Investment Demonstration 
Project would streamline leasing provisions to take secretarial 
approval out of every lease, the Secretary of Interior retains 
oversight over the project and retains the power to enforce or cancel 
leases under the project if needed to exercise the United States' trust 
responsibility to tribes. Additionally, as federal land, trust land 
remains subject to the same environmental reviews that all federal 
lands are subject to. Neither my legislation, nor the HEARTH Act are 
attempts to get around environmental regulations and exploit the land. 
Instead they are efforts to bring meaningful change to Indian Tribes by 
allowing them to efficiently develop their lands just like non-Indians 
are allowed to.
    The single most frequent question people ask me about H.R. 2362 is: 
Why Turkey? The answer to that is simple. Turkey, through their trade 
ministry, has shown interest in partnering with tribal economies. 
Turkey sent the first delegation from a foreign government to the 
National Center for American Indian Enterprise Development's annual 
Reservation Economic Summit, commonly known as RES, in 2011. People in 
Turkey have a genuine affinity towards American Indians. Many Turks 
believe that Indians share a common ancestry with the Turks dating back 
millennia. Whether you hold this belief or not, there is no denying 
that many Turks want to help Indians. H.R. 2362 would capitalize on 
this affinity to strengthen ties with a key ally and help struggling 
tribal economies.
    For a variety of reasons, Mr. Chairman, there is a genuine interest 
in Native Americans in many parts of the world. It is my belief that if 
H.R. 2362 succeeds and innovative legislation like the HEARTH Act is 
passed, other foreign government and corporations may well follow the 
example of Turkey and invest in Indian Country. That can only result in 
good things for Indian Country while strengthening America's ties with 
historic allies like Turkey. Progress for our most challenged 
population--Native Americans--is a good thing for our country and will 
have a positive impact for our image around the world.
    Mr. Chairman, thank you again for inviting me to testify before 
your committees on these important bills. These pieces of legislation 
are vital to the development of Tribal economies. I encourage this 
committee to favorably report both the Indian Tribal Trade and 
Investment Demonstration Act and the HEARTH Act and move them through 
the legislative process.
                                 ______
                                 
    Mr. Young. Thank you, Congressman Cole. And I want to thank 
both of the witnesses. These are two good pieces of legislation 
strongly I am in support of. If I ever get my Empowerment Act, 
it is going to include these for sure. But we are going to try 
to move these bills separately and make sure that this is 
allowed.
    I have heard more complaints since I have been Chairman of 
this Committee of the inactivity of the BIA in responding to 
the wishes of a tribe and tribal land. I think that is 
unfortunate. I know we are going to hear from the BIA, and I am 
not picking on the BIA necessarily, but they haven't functioned 
correctly. And I have not seen any progress in that arena since 
I have been in this Congress as far as expediting the leasing 
for homes, as you said, Mr. Heinrich, and the leasing, in the 
HEARTH Act, leasing for industrial means.
    I have no questions. Does the gentleman from Oklahoma have 
any questions?
    Mr. Boren. No questions, just a co-sponsor of both bills. 
Hope we can get these, you know, passed very quickly, get them 
to the House.
    And I want to thank both Members. I know Mr. Heinrich has 
been working on this for quite some time and that there have 
been a lot of different changes in the legislation. He has been 
working with staff. So we want to thank you for that also.
    For Mr. Cole, in Oklahoma we have obviously a large Native 
American population, but we also have a Turkish community. So I 
think that is a great partnership, and we look forward to these 
bills passing. Thank you.
    Mr. Young. With that, you are excused. God, I would like to 
be a schoolteacher again. Oh, boy.
    Now we will call up the second panel. Mr. Michael Black, 
Director of the Bureau of Indian Affairs; The Honorable John L. 
Berrey, Business Committee, Quapaw Tribe of Oklahoma; The 
Honorable Floyd Tortalita, Vice Chairman of the National 
American Indian Housing Council; Mr. Lincoln McCurdy, President 
of the Turkish Coalition of America.
    And if you, Mr. Ranking Member, my good friend, Dan Boren, 
would like to introduce your chairman of the tribe from 
Oklahoma, you are quite welcome.
    Mr. Boren. Thank you, Mr. Chairman. It is an honor to get 
to introduce someone from my District, a fellow Oklahoman and a 
good friend, Chairman John L. Berrey.
    John Berrey is a member of both the Quapaw Tribe and the 
Osage Nation. He serves as Chairman of the Quapaw Tribal 
Business Committee and the Downstream Development Authority. He 
is also a fourth-generation rancher on the family's original 
allotment on the Osage Reservation located north of Tulsa, 
Oklahoma.
    Since graduating from the University of Arkansas--we can 
forgive him for that, we will talk about that later; we have a 
little football rivalry--with a degree in journalism in 1991, 
Chairman Berrey has held a number of business positions, 
including several with the Quapaw Tribe.
    I can tell you there are great things going on in the 
northeastern part of our District because of his leadership. 
Our office and his administration have worked really well 
together, and on top of that, he has become a great friend. So 
we are glad to have you here and look forward to your 
testimony.
    Mr. Young. Good introduction. OK, Mr. Black, you are up 
first.

           STATEMENT OF MICHAEL S. BLACK, DIRECTOR, 
                    BUREAU OF INDIAN AFFAIRS

    Mr. Black. Good afternoon, Mr. Chairman, members of the 
Subcommittee. My name is Mike Black, and I am Director of the 
Bureau of Indian Affairs at the Department of the Interior. 
Thank you for the opportunity to present the Department's views 
on H.R. 205, the Helping Expedite and Advance Responsible 
Tribal Home ownership Act, also known as the HEARTH Act.
    This Administration continues to support tribal self-
determination and recognizes that tribal control over tribal 
resources is intrinsic to this policy. The Department 
understands that tribal homelands are essential to the health, 
safety and welfare of the first Americans and that it is 
important for Indian tribes to have the ability to determine 
how their homelands will be utilized.
    This is why the Department is in the process of revising 
our own regulations governing leasing on Indian lands. Our 
revisions will streamline the process by which leases over 
Indian lands are approved, thereby promoting home ownership, 
economic development and renewable energy development on tribal 
lands.
    H.R. 205 is consistent with this effort, and we are pleased 
to strongly support this bill.
    H.R. 205 would amend certain Sections of 25 U.S.C. 
Sec. 415, the Indian Long-Term Leasing Act, and would restore 
tribal authority to govern leasing on tribal lands for those 
tribes that wish to exercise that authority.
    Under H.R. 205, willing tribes would initially submit their 
own leasing regulations to the Secretary of the Interior for 
approval. Following Secretarial approval of such leasing 
regulations, tribal governments would process leases for tribal 
Trust land at the tribal level pursuant to their own laws, 
without a requirement for further approval from the Secretary.
    This has the potential to significantly reduce the time it 
takes to approve leases for homes and small businesses. H.R. 
205 also ensures that the Department will retain the authority 
and responsibility to fulfill its trust obligation to protect 
tribal Trust lands through the enforcement or cancellation of 
leases approved under tribal regulations or the recision of 
Secretarial approval of tribal regulations where appropriate.
    The Department anticipates that H.R. 205 will ultimately 
reduce the costs of implementing tribal leasing programs for 
the Federal Government by allowing willing tribes to assume 
control of leasing over their own tribal lands.
    By increasing efficiency in the implementation of tribal 
leasing programs, H.R. 205 will go a great distance in 
promoting home ownership, economic development and renewable 
energy development. Again, the Department strongly supports 
H.R. 205, and we look forward to working with the Subcommittee 
on continued support of Indian tribes.
    As for H.R. 2362, the Indian Tribal Trade and Investment 
Demonstration Project Act of 2011--and no, I can't say that 
three times fast--would facilitate economic development by 
Indian tribes and encourage investment by Turkish enterprises.
    The Department supports the principles embodied by H.R. 
2362, which would authorize a pilot collaboration between 
selected Indian tribes and tribal consortia and Turkish 
business enterprises. The bill would also authorize the tribal 
approval of leases entered into under the demonstration project 
in the bill without the Secretary of the Interior's approval of 
such leases when certain requirements have been met.
    While the Department views the bill as a potential job 
creator that would likely spur economic activity in Indian 
country, the Department has several concerns with H.R. 2362 and 
would be pleased to work with the Subcommittee staff to improve 
language in the legislation.
    While we support the concept of H.R. 2362, the Department 
would like to inform the Subcommittee that the Bureau of Indian 
Affairs already has several examples of leases between tribes 
and foreign entities, which cover such economic activities as 
rights-of-way and oil and gas development.
    As stated earlier, the Department supports H.R. 205, the 
HEARTH Act, which has many provisions in common with H.R. 2362. 
The Department is not opposed to this proposed demonstration 
project but believes that the passage of the HEARTH Act would 
foster many of the same goals identified in H.R. 2362 on a 
broader scale.
    Some of the Department's concerns with H.R. 2362 are that 
the term ``consortium'' is not defined in the bill. The 
Department would find it useful to provide a definition along 
with more information on how these types of consortium leases 
would work.
    Since the bill provides for the development of tribal 
regulations as one requirement for non-Secretarial approval for 
certain leases under H.R. 2362, there does not appear to be a 
provision that would allow for consortium regulations that 
would provide the same exception to non-Secretarial approval of 
such consortium leases.
    We are also concerned with Section 3 of H.R. 2362. This 
Section provides only one year for the tribal approval of 
tribal leases. This one-year requirement would include 
submission of the tribal leasing regulations for Secretarial 
approval, drafting, consulting arm and approving departmental 
leasing regulations for the purposes in H.R. 2362, the 
execution of leases and the review of the leases' environmental 
consequences. In view of these multiple steps, a one-year 
timeframe would likely be unworkable.
    The Department looks forward to working with the bill 
sponsor and the Subcommittee on H.R. 2362 to identify a more 
workable timeframe to develop and approve tribal leasing 
regulations and a definition of ``consortium'' that meets the 
goals of the legislation.
    I would be happy to answer any questions you may have. 
Thank you.
    [The prepared statements of Mr. Black follow:]

  Statement of Mike Black, Director of the Bureau of Indian Affairs, 
United States Department of the Interior, on H.R. 205, Helping Expedite 
           and Advance Responsible Tribal Home Ownership Act

    Good afternoon Mr. Chairman and members of the Subcommittee. My 
name is Mike Black and I am the Director of the Bureau of Indian 
Affairs (BIA) at the Department of the Interior (Department). I am 
pleased to be here today to present the Department's views regarding 
H.R. 205, the Helping Expedite and Advance Responsible Tribal 
Homeownership Act (HEARTH Act).
    This Administration continues to support tribal self-determination, 
and we recognize that tribal control over tribal resources is intrinsic 
to this policy.
    We understand that tribal homelands are essential to the health, 
safety, and welfare of the First Americans, and that it is important 
for Indian tribes to have the ability to determine how their homelands 
will be utilized. This is why the Department is in the process of 
revising our own regulations governing leasing on Indian lands. Our 
revisions will streamline the process by which leases of Indian lands 
are approved, thereby promoting homeownership, economic development, 
and renewable energy development on tribal lands.
    The HEARTH Act is consistent with this effort, and we are pleased 
to strongly support this legislation. H.R. 205 would amend certain 
sections of 25 U.S.C. Sec. 415 (the Indian Long-Term Leasing Act) which 
would restore tribal authority to govern leasing on tribal lands, for 
those tribes that wish to exercise that authority. Under this 
legislation, willing tribes would initially submit their own leasing 
regulations to the Secretary of the Interior for approval. Following 
Secretarial approval of such leasing regulations, tribal governments 
would process leases for tribal trust land at the tribal level, 
pursuant to their own laws, without a requirement for further approval 
of the Secretary. This has the potential to significantly reduce the 
time it takes to approve leases for homes and small businesses.
    Pursuant to the HEARTH Act, leases would be limited to an initial 
term of 25 years, but could be renewed for up to two additional terms 
of up to 25 years each. Tribes could also approve leases for public, 
religious, educational, recreational, or residential purposes for a 
term of up to 75 years where permitted by tribal regulations. Tribal 
leasing regulations would not apply to mineral leases or leases of 
individual Indian allotments.
    As noted above, under H.R. 205, tribes that desire to develop and 
implement their own regulations governing leasing would be able to 
submit tribal regulations for approval by the Secretary of the 
Interior. The Secretary would be required to approve tribal regulations 
that are consistent with the Department's own regulations governing 
leasing on Indian lands. The HEARTH Act requires the Department to 
review tribal leasing regulations within 120 days, but does provide us 
with the flexibility to extend this time period in consultation with 
the affected tribe.
    The HEARTH Act ensures that the Department will retain the 
authority to fulfill its trust obligation to protect tribal trust lands 
through the enforcement or cancellation of leases approved under tribal 
regulations, or the rescission of Secretarial approval of tribal 
leasing regulations, where appropriate. At the same time, the HEARTH 
Act ensures that the United States will not be liable for losses 
incurred as a result of leases approved under tribal leasing 
regulations.
    We anticipate that the HEARTH Act will ultimately reduce the costs 
of implementing tribal leasing programs for the federal government by 
allowing willing Tribes to assume control of leasing on tribal lands. 
By increasing efficiency in the implementation of tribal leasing 
programs, the HEARTH Act will go a great distance in promoting 
homeownership, economic development, and renewable energy development 
by restoring tribal authority over tribal lands. The Department 
strongly supports H.R. 205, and I look forward to working with this 
Subcommittee in continued support of Indian tribes.
    Thank you for the opportunity to present testimony on H.R. 205. I 
will be happy to answer any questions you may have.
                                 ______
                                 

  Statement of Mike Black, Director of the Bureau of Indian Affairs, 
 United States Department of the Interior, on H.R. 2362, Indian Tribal 
             Trade and Investment Demonstration Project Act

    Good afternoon, Mr. Chairman, Ranking Member, and members of the 
Subcommittee. My name is Mike Black and I am the Director of the Bureau 
of Indian Affairs (BIA) in the Department of the Interior (Department). 
I am pleased to be here today to provide the Department's views on H. 
R. 2362, the Indian Tribal Trade and Investment Demonstration Project 
Act of 2011.
    The BIA provides services directly or through contracts, grants, or 
compacts to a service population of about 1.7 million American Indians 
and Alaska Natives who are enrolled members of 565 federally recognized 
tribes living on or near Indian reservations in the 48 contiguous 
United States and Alaska. In addition, the BIA is responsible for the 
administration and management of approximately 56 million acres of land 
held in trust by the United States for American Indians, Indian tribes, 
and Alaska Natives. Building strong, prosperous, Native American 
economies is a priority for this Administration. This Administration 
continues to strongly support tribal self-determination and self 
governance and we recognize that tribal control over tribal resources 
is intrinsic to this policy.
    H.R. 2362 would ``facilitate economic development by Indian tribes 
and encourage investment by Turkish enterprises.'' The Department 
supports the principles embodied by H.R. 2362, which would authorize a 
pilot collaboration between Secretary of the Interior selected Indian 
tribes and tribal consortia and Turkish business enterprises. The bill 
would also authorize the tribal approval of leases entered into under 
the demonstration project in the bill without the Secretary of the 
Interior's approval of such leases, when certain requirements are met 
for such leases. While the Department views the bill as a potential job 
creator that would likely spur economic activity in Indian Country, the 
Department has several concerns with H.R. 2362, and would be pleased to 
work with the Subcommittee's staff to improve language in the 
legislation.
    The Department is aware that over the past eighteen months the 
National Center for American Indian Enterprise Development (NCAIED) and 
other tribal interests have participated in a Native American trade 
mission to the Republic of Turkey and otherwise encouraged trade 
relations between Turkish firms and Indian nations. H.R. 2362 has 
identified that the requirement that certain Indian trust land leases 
be approved by the Secretary of the Interior is a barrier to the growth 
of these nascent commercial relations. H.R. 2362 therefore seeks to 
exempt certain commercial leases from the Secretary's purview as part 
of a demonstration trade project involving tribes/tribal consortia and 
private companies incorporated or emanating from the Republic of 
Turkey, including leases for business and economic development, and 
public, educational, or residential purposes, grazing and agricultural 
development involving specialized crops, so long as such leases are 
executed pursuant to tribal regulations approved by the Secretary.
    While we support the concept of H.R. 2362, the Department would 
like to inform the Subcommittee that the Bureau of Indian Affairs 
already has several examples of leases between tribes and foreign 
entities. These leases cover such economic activities as rights of way, 
and oil and gas development. A number of tribes have existing 
commercial partnerships with companies/entities that are located in 
several foreign countries, and nothing in existing law prohibits this 
type of leasing activity. More specifically, there are instances where 
companies/entities that are located in a foreign country but have 
incorporated in a U.S. state, have executed leases with tribes. There 
are also instances where companies/entities located in a foreign 
country, such as Canada have a lease with a tribe. In those instances 
where a Master Business Lease is the main agreement, there could be 
sub-leases with foreign entities; however, such sub-lease information 
is not available to the BIA.
    The BIA has completed a review of its existing leasing regulations, 
and will soon propose new regulations geared toward addressing 
residential leasing, business leasing, and wind and solar energy 
leasing. The Department is now on record before this Subcommittee in 
support of the H.R. 205, the Helping Expedite and Advance Responsible 
Tribal Homeownership Act (HEARTH Act), which has many provisions in 
common with H.R. 2362. The Department is not opposed to this proposed 
demonstration project, but believes that the passage of the HEARTH Act 
would foster the same goals identified in H.R. 2362 on a broader scale.
    The Department has concerns with several provisions in H.R. 2362. 
The Department is concerned that the term ``consortium'' is not defined 
in the bill. The Department would find it useful to provide a 
definition, along with more information on how these types of 
``consortium'' leases would work. Since the bill provides for the 
development of tribal regulations as one requirement for non-
Secretarial approval for certain leases under H.R. 2362, there does not 
appear to be a provision that would allow for ``consortium'' 
regulations that would provide the same exemption to non-Secretarial 
approval of such ``consortium'' leases.
    The Department is also concerned with Section 3 of H.R. 2362. This 
section provides only one year for the tribal approval of tribal 
leases, which includes submission of the tribal leasing regulations for 
Secretarial approval, drafting, consulting on, and approving Department 
leasing regulations for the purposes in H.R. 2362, the execution of the 
leases, and review of the lease's environmental consequences. In view 
of these multiple steps, the one year timeframe would likely be 
unworkable.
    The Department looks forward to working with the bill sponsor and 
this Subcommittee to identify a more workable timeframe to develop and 
approve tribal leasing regulations, and a definition of ``consortium'' 
that meets the goals of the legislation.
    Further, the Department is concerned with Section 4 of H.R. 2362, 
specifically the subsection that establishes the eligibility criteria 
for a tribe or consortium, to participate under the Act, requires 
applicants to ``demonstrate[], for the 3 fiscal years immediately 
preceding the fiscal year for which participation is requested, 
financial stability and financial management capability as demonstrated 
by a showing by the Indian tribe or consortium that there were no 
material audit exceptions in the required annual audit of the self-
determination contracts of the Indian tribe or consortium.'' According 
to this standard, it is possible a number of Indian tribes or Tribal 
consortia may be ineligible, because such tribes or consortia do not 
have a P.L. 93-638 Self Determination contract or meet the federal 
funding threshold that would trigger an audit review. This language 
would also result in Self Governance Tribes being ineligible for the 
demonstration project, since the bill leaves out all self governance 
compacting Tribes that have only Self Governance agreements. Therefore, 
the language in Section 4 would result in some Indian Tribes, Tribal 
Consortia and Self Governance Tribes being ineligible to participate in 
the demonstration project under H.R. 2362.
    Unemployment in Indian County is more severe than it is in the rest 
of the United States. Expanded trade relations with the Republic of 
Turkey offers the potential of creating new income streams and 
employment for Indian communities. The bill requires the Secretary to 
submit a report one year after its enactment describing the economic 
benefits this pilot achieves. We hope the results of the project will 
encourage broader commercial relations between Indian Country and other 
interested foreign partners, and encourage those partners to invest in 
tribal communities here in the United States.
    This concludes my prepared statement. I will respond to any 
questions the Subcommittee may have.
                                 ______
                                 
    Mr. Young. Thank you, Mr. Black. The Honorable John Berrey.

            STATEMENT OF JOHN L. BERREY, CHAIRMAN, 
          BUSINESS COMMITTEE, QUAPAW TRIBE OF OKLAHOMA

    Mr. Berry. Thank you, Mr. Chairman. Thank you for the 
opportunity to speak today in support of H.R. 2362. I also want 
to thank you, Congressman Boren, for the friendly introduction. 
I want to thank all of you on the dais for all your hard work 
over the years to benefit Native Americans and other natives of 
Alaska. We are very much appreciative of your hard work.
    I have submitted my written statement for the record, but I 
would just like to maybe talk a little bit about my experience 
with the Turkish, the Republic of Turkey, and a trip I took 
there.
    About a year ago I was fortunate to be able to travel to 
Istanbul and Ankara with a group of tribal leaders, and I was 
amazed by the country and the people. And I believe that this 
is a great opportunity not only for Indian country but for the 
Turkish Republic.
    As Congressman Cole stated, there is a tremendous affinity 
to tribal people in Turkey. I don't really understand it that 
much, but I felt it and it was sincere and it really made me 
comfortable with working with the people there.
    It is an Islamic country, very secular. And when you are in 
downtown Istanbul, you can imagine yourself being in Houston or 
Dallas or Oklahoma City. It is a beautiful country, it is run 
very well, and the people are extremely friendly. And I think 
it is just a great opportunity to help us with an ally that has 
been very much in support of our country for a long time.
    Also, I think we all know there is a large economic need in 
Indian country. With unemployment running as high as 80 percent 
on some reservations, any opportunity to improve the economic 
environment of a reservation is always a positive. And I think, 
after hearing Mr. Black, I think there are ways to make this 
palatable to the Secretary, and I think with some conversations 
we could make this thing work out very well.
    I think the pilot project is very possible, and I know 
there are willing businesses within Turkey that would like the 
opportunity. I have had a great dialogue with many construction 
companies and actually some hide importers for the leather 
industry in Turkey, and I would like to continue that process 
and maybe have one of the pilot projects at Quapaw.
    I also think it is a great opportunity just for us to forge 
relationships with a country that is very much interested in 
being our partners. They really truly love Native Americans, 
and it is refreshing to have a country that is across the globe 
that really feels that way. And any way we could do to 
cultivate that relationship, I think that would be fantastic.
    And I think we as Native Americans face some mutual 
challenges. Recently the Quapaw Tribe suffered a devastating 
blow in the Joplin tornado. We had several tribal members who 
lost everything and were still part of the Joplin community, 
going through this healing process, rebuilding process. And 
there are a lot of analogies with the problems that Turkey is 
facing with the recent earthquake.
    So just based on, you know, we have this joint sort of 
experience with horrible natural disasters, I think that is 
something that we can turn around and use this bill to work 
together to improve the economies of both Native American 
nations and the Turkish Republic. I just think it is a great 
idea. I want to go back to Turkey as soon as I can get a 
ticket, and hopefully it will be soon.
    And if you have any questions, I am here for you. Thank 
you.
    [The prepared statement of Mr. Berrey follows:]

Statement of John L. Berrey, Chairman, Business Committee, Quapaw Tribe 
  of Oklahoma (O-Gah-Pah), on H.R. 2362, The Indian Tribal Trade and 
                  Investment Demonstration Project Act

    Good afternoon Chairman Young, Ranking Member Boren, and members of 
the Subcommittee on Indian and Alaska Native Affairs. My name is John 
Berrey, and I am the Chairman of the Business Committee of the Quapaw 
Tribe of Oklahoma (O-Gah-Pah).
    Thank you for your invitation to appear before you today and for 
holding this hearing on the Indian Tribal Trade and Investment 
Demonstration Project Act (H.R. 2362). I also commend Rep. Tom Cole (R-
OK) for introducing this importation legislation.
    With our current financial crisis and faced with unemployment rates 
of up to 80 percent in some tribal communities, Indian tribes must find 
creative ways to encourage economic development and bring prosperity to 
their communities. H.R. 2362, legislation I strongly support, 
encourages and expands economic development opportunities in Indian 
Country; creates investment opportunities by the private sector in the 
Republic of Turkey; and establishes robust relationships between Turkey 
and Indian tribal communities.
    H.R. 2362 will create the ``Indian Tribal Trade and Investment 
Demonstration Project'' within the U.S. Department of the Interior to 
include up to six Indian tribes or consortia. The measure authorizes 
participating Indian tribes or consortia to lease land held in trust by 
the United States without the approval of the Interior Secretary if the 
lease is in furtherance of a commercial, economic, or business 
development undertaking with a Turkish entity and is executed under the 
tribal regulations approved by the Interior Secretary.
    Authorized activities to be conducted on such leased lands would 
include business and economic development; public, educational, or 
residential purposes; development or use of natural resources in 
connection with operations under such leases; and grazing and farming 
activities. The bill would not authorize subsurface mineral development 
activities.
    In addition, the measure requires the Interior Secretary to approve 
tribal lease regulations if they are consistent with regulations issued 
by the Secretary, and subjects proposed activities to an environmental 
review that meets specified requirements. It authorizes participating 
tribes or consortia to rely on Federal environmental reviews included 
in the Indian Long Term Leasing Act if proposed actions are Federally-
funded.
    In November 2010, the Turkish Coalition of America (TCA) sponsored 
an economic, educational, and cultural exchange with various Indian 
tribes, in which I participated. During my stay in Istanbul, I had the 
honor to represent the Quapaw Tribe. I met with distinguished high 
level Turkish officials, including Zafer Caglayan, the Turkish Minister 
of Foreign Trade. We were well received by the Republic of Turkey and 
the exchange established enduring and positive working relationships 
and investment opportunities between Turkey and American Indian tribes.
    Since our trip to Turkey, tribal leaders and Indian organizations 
continue to work with TCA to help the Government of Turkey and the 
Turkish private sector develop a more thorough understanding of Federal 
Indian law and policy regarding business development, the protocols of 
working with tribal governments, and a better understanding of what 
projects might be jointly undertaken by these companies and host 
tribes. Our strategic objective is to establish long-term and lasting 
commercial ties between Turkey and Indian tribal communities as well as 
promoting cultural and education relations.
    Following the meeting in Istanbul, in March 2011, along with the 
Honorable Michael Finley, Chairman of the Confederated Tribes of the 
Colville Reservation; Cemalettin Damlaci, Turkey Deputy State Minister 
for Foreign Trade; and G. Lincoln McCurdy, President of TCA, I 
participated in a panel at the Annual Reservation Economic Summit 
(RES2011) & American Indian Business Trade Fair entitled Native 
American Trade Mission Overseas & Free Trade Zones. This summit has led 
to deeper and more extensive commercial ties and is the kind of venue 
that will lead to greater levels of trade and investment.
    Over recent decades, many Indian tribes have evolved to become 
successful owners and managers of sophisticated commercial businesses 
in various fields such as gaming, energy, finance, and manufacturing. 
These tribes have also grown to play an important role in the economic 
stability and future of their communities and regional economies.
    Large tribal land bases, abundant natural resources, and often-
attractive locations provide prime opportunities for economic 
development and prosperity. When coupled with sustained and strong 
tribal leadership and business integrity, it is not surprising that 
many tribes are experiencing significant economic growth and are 
increasingly participating in business ventures with private sector 
entities within the United States and, increasingly, with partners from 
abroad.
    There are available to potential private sector partners 
significant investment and business development incentives designed to 
encourage outside investment and job creation in tribal communities. 
For instance, as part of the 1993 Omnibus Budget Reconciliation Act 
(Pub.L.103-66), Congress enacted two key tax incentives aimed at 
encouraging private sector employers to locate their business 
operations on or near Indian lands and to hire and retain qualified 
Indian employees or their spouses. The incentives are a wage and health 
care credit to the federal taxpayer for hiring qualified Indian 
employees and an accelerated depreciation provision for locating 
qualified physical infrastructure and property on Indian lands. Since 
2003, both incentives have been extended for one year periods, and will 
expire on December 31, 2011. I urge Congress to permanently extend 
these tax incentives.
    Thank you for your leadership and strong support of Indian tribal 
communities, and for your consideration of my comments. At this time, I 
would be happy to answer any questions you might have.
                                 ______
                                 
    Mr. Young. Thank you, sir. Floyd, you are next.

 STATEMENT OF FLOYD TORTALITA, PUEBLO OF ACOMA, VICE CHAIRMAN, 
            NATIONAL AMERICAN INDIAN HOUSING COUNCIL

    Mr. Tortalita. [Speaking in native tongue.]
    Good afternoon, Chairman Young, Vice Chairman Boren and 
distinguished members of the House Subcommittee on Indian and 
Alaska Native Affairs. I want to thank you for your leadership 
and longstanding support for Indian country.
    My name is Floyd Tortalita, and I am the Vice Chairman of 
NAIHC, which is the National American Indian Housing Council. I 
am from the Pueblo of Acoma in New Mexico and also an enrolled 
member of the Pueblo of Acoma and the Executive Director of the 
Pueblo of Acoma Housing Authority.
    Before I present my views on H.R. 205, the HEARTH Act, 
allow me to describe the framework in which Indian tribes 
provide housing and housing-related community development.
    Grounded in a solid foundation of Indian self-
determination, the Native American Housing Assistance and Self-
Determination Act was enacted in 1996 as a result of the 
combined efforts of tribes and tribal housing programs with 
Federal policy-makers who came together to lay out a new vision 
for building strong tribal communities by providing quality and 
affordable housing and related physical infrastructure.
    The objective in the housing is to consolidate once-
separate Federal housing programs into a single block grant and 
provide tribes greater decision-making authority over their 
programs.
    While the delivery of housing has improved since 1996, many 
challenges remain, including working with tribal Trust lands, 
which are held in common and cannot be collateralized to 
attract private capital, private capital inadequate or non-
existent physical infrastructure, and in weak economic 
conditions that hinder the development of a robust housing 
sector. Without a doubt, NAHASDA is the single biggest source 
of housing capital for Indian people. However, its successes 
depend on how tribes can adequately address these and other 
challenges.
    Most Indian tribal land is held under trust or restricted 
status by the United States for the beneficial ownership of 
Indian tribes or individual Indians. Trust lands may not be 
sold but may be leased for a variety of purposes under 
applicable law.
    Because tribal Trust lands may not be foreclosed upon, 
borrowers are obliged to have a valid leasehold, which is also 
subject to the approval of the Secretary. In the event of a 
default, the physical structure and leasehold interests are 
subject to foreclosure. The requirement of the Secretary giving 
approval for these leases in this instance is time-consuming 
and is a contributing factor to the low home ownership rate on 
native communities.
    One of the biggest processes that hinders this process 
dealing with the BIA is the time. I was the Executive Director 
for the Pueblo of Laguna prior before coming to work for my 
people, and when we were working on Section 184 loans or any 
other type of lease that went through the BIA, the BIA agency 
office was 20 feet away from our office, 20 feet, and it took 
anywhere from six months to two years to get the lease through. 
And it was again going through that red tape that was there.
    In that time, myself, with that experience and coming back 
to work with the Pueblo of Acoma, I came with Governor Sanchez 
at the time and I met with Congressman Heinrich. Congressman 
Heinrich and Governor Sanchez and I actually had a meeting 
where we stood out in the hallway and talked for 15 minutes in 
regards to this. We shared those same concerns again with many 
of our delegates, with Congressman Lujan again at that time, 
with our Senators, with Senator Domenici at that time.
    So those are some of the issues that we dealt with was the 
long term, the long processes that it took to work as far as 
getting these leases' approval.
    With the 111th Congress, the HEARTH Act was originally 
introduced by the House of Representatives, by Representative 
Martin Heinrich, and in the Senate by Senator Byron Dorgan. 
This bill was modified in the Senate Committee on Indian 
Affairs to include provisions relating to the tribal 
environmental review process that was negotiated by 
Representative Heinrich's office, the Senate Committee on 
Indian Affairs' leadership at the BIA and the Department of the 
Interior Solicitor's office and NAIHC.
    The HEARTH Act will offer capable and willing Indian tribes 
the authority to enact their own tribal leasing regulations and 
to negotiate and enter into certain leases without the approval 
of the Secretary. It will go a long way in strengthening tribal 
self-determination and tribal economies at the same time.
    As both H.R. 205 and S. 703 provide, it is crucial that 
such proposals be made available to Indian tribes on a 
voluntary basis, leaving the decisions as to whether to 
participate with the tribes themselves.
    In addition, we encourage H.R. 205 to include language that 
directs the BIA to prepare and submit to Congress a report 
detailing the history and experience of Indian tribes that have 
chosen to assume responsibility for administering the Indian 
Land Title and Records Office functions from the BIA. This 
language was a part of last year's bill and is included in the 
Senate version this year.
    The NAIHC strongly supports H.R. 205 because it respects 
and fosters Indian tribal decisionmaking, expedites what can 
often be lengthy Federal administrative processes and will 
improve the delivery of Federal housing assistance and expand 
economic opportunity in tribal communities.
    Thank you, and if you have any questions, I will be happy 
to answer them.
    [The prepared statement of Mr. Tortalita follows:]

  Statement of The Honorable Floyd Tortalita, Vice-Chairman, National 
 American Indian Housing Council, on H.R. 205, The ``Helping Expedite 
       and Advance Responsible Tribal Homeownership Act of 2011''

Introduction
    Good morning Chairman Young, Vice Chairman Boren, and distinguished 
members of the Subcommittee on Indian and Alaska Native Affairs. My 
name is Floyd Tortalita and I am the Vice-Chairman of the National 
American Indian Housing Council (NAIHC), the only national Indian non-
profit organization dedicated to advancing housing, physical 
infrastructure, and economic development in tribal communities in the 
United States. I am also the Executive Director of the Pueblo of Acoma 
Housing Authority and an enrolled member of the Pueblo of Acoma.
    I want to thank Representative Martin Heinrich for his leadership 
in introducing H.R. 205, and thank you Mr. Chairman, for the 
opportunity to appear today and provide NAIHC's views regarding the 
``Helping Expedite and Advance Responsible Tribal Homeownership Act'' 
(H.R. 205), which was introduced in the House of Representatives on 
January 6, 2011.
Native American Housing Assistance and Self-Determination Act
    Despite recent improvements in the delivery of housing assistance, 
Indian housing is still substandard when compared with housing 
available to other Americans. An estimated 200,000 housing units are 
needed immediately in Indian Country and approximately 90,000 Native 
families are homeless or under-housed. Overcrowding on tribal lands is 
almost 15 percent, and 11 percent of Indian homes lack complete 
plumbing and kitchen facilities.
    Before I present NAIHC's views on H.R. 205, allow me to describe 
the framework in which Indian tribes provide housing and housing-
related community development through the Native American Housing 
Assistance and Self Determination Act (NAHASDA).
    Enacted in 1996, NAHASDA is grounded in the solid foundation of 
Indian Self-Determination, and was a result of the combined efforts of 
Indian tribes, tribal housing authorities, key congressional 
committees, and policymakers who came together to lay out a new vision 
for building strong tribal communities by providing quality and 
affordable housing and related physical infrastructure.
    The beauty of NAHASDA is its consolidation into a single block 
grant, once-disparate Federal housing funding programs, and to make 
tribes--not HUD--the primary decision-maker when it comes to designing, 
developing and managing a housing and infrastructure plan that meets 
the unique needs of local tribal communities.
    While the delivery of housing has substantially improved since 
1996, many challenges remain, including working with Indian tribal 
trust lands, which are held in common and cannot be collateralized to 
attract private capital. In most tribal areas, inadequate or non-
existent physical infrastructure and weak economic conditions in 
general are also major impediments to a more robust housing sector.
    Without a doubt, NAHASDA is the single largest source of housing 
capital for Indian people and its success is dependent on how tribes 
can adequately address these other challenges.
Indian Trust Lands and the Indian Long-term Leasing Act of 1955
    Most Indian tribal land is held in trust or restricted status by 
the United States for the benefit of Indian tribes or individual 
Indians. Trust lands may not be sold but may be leased for a variety of 
purposes under applicable law. The Indian Long-Term Leasing Act of 1955 
(the 1955 Act) requires the approval of the Secretary of the Interior 
(Secretary) for certain types of leases of Indian trust and restricted 
Indian lands. Any lease that is not approved by the Secretary is 
invalid.
    Timely processing of lease documents is critical, for not only 
housing but also for Federal loan guarantee programs. One program--the 
Indian Home Loan Guaranty Program--also known as the Section 184 
Program, addresses the lack of mortgage lending in tribal communities 
by offering mortgage financing to eligible Native American individuals, 
families, tribes and tribally-designated housing entities. The Section 
184 Program, administered by HUD, guarantees these loans that are made 
by private sector lenders.
    Because lenders cannot foreclose on tribal trust lands, borrowers 
are obliged to have a valid leasehold, which is also subject to the 
approval of the Secretary. In the event of a default, the physical 
structure and leasehold interest are subject to foreclosure. The 
requirement of secretarial review and approval for these leases, in 
this instance, is time-consuming and is a contributing factor to the 
low homeownership rate in Native communities.
    Current law authorizes leases for up to 25 years with an option for 
one additional 25-year term for a total 50-year term for ``public, 
religious, educational, recreational, residential, or business 
purposes. . .'' NAHASDA authorizes lease terms for ``housing 
development and residential purposes'' for 50-year terms, but retains 
the requirement of secretarial approval to render the lease valid.
    The Secretary, acting through the Bureau of Indian Affairs (BIA), 
administers the land leasing process, which can become lengthy, taking 
months--and sometimes years--hindering housing, infrastructure, and 
related economic development on trust lands. Because of these delays, 
and the desire by individual Indian tribes for more authority and 
tribal control in the leasing of their own lands, 45 Indian tribes have 
sought relief from the 1955 Act by petitioning Congress for specific, 
tribe-by-tribe Federal legislation.
    Most recently, the Navajo Nation succeeded in amending the 1955 Act 
to develop and manage its own surface leasing ordinance. The amendments 
were made in 2000, and as a result, the Navajo Nation may enter into 
lease agreements and renewals of leases without the Secretary's review 
or approval.
The HEARTH Act
    In 111th Congress, the HEARTH Act was introduced in the House of 
Representatives by Representative Martin Heinrich and introduced in the 
Senate by Senator Byron Dorgan. During its review and consideration by 
the Senate Committee on Indian Affairs and House Natural Resource 
Committee, the bill was modified to include provisions related to 
tribal environmental review that were negotiated by the Senate 
Committee on Indian Affairs leadership, the Bureau of Indian Affairs, 
the U.S. Department of the Interior's Solicitor's Office, 
Representative Heinrich, and the NAIHC. The bill was not enacted in the 
111th Congress, and in January 2011, Representative Martin Heinrich re-
introduced his bill and Senator John Barrasso, introduced S.703, the 
Senate companion bill.
    We understand minor amendments to H.R. 205 have been considered in 
recent weeks to clarify the standards tribes must meet and to authorize 
the Interior Secretary to issue capacity-building grants to interested 
Indian tribes. NAIHC has reviewed these amendments and supports the 
amendments being added to H.R. 205.
    The HEARTH Act will offer capable and willing Indian tribes the 
authority to enact their own tribal leasing regulations and to 
negotiate and enter into certain leases without the approval of the 
Secretary. It will go a long way in strengthening tribal self-
determination and tribal economies at the same time.
    The two HEARTH bills--H.R. 205 and S.703--deal with a fundamental 
aspect of tribal self-governance: control of tribal resources, in this 
case control over tribal land.
    While NAIHC expects many tribes to seek authority to develop and 
manage their own surface leasing ordinances, it is appropriate that any 
such authority be made available to Indian tribes on a voluntary basis, 
leaving the decision as to whether to participate with the tribes 
themselves.
    In addition, the HEARTH legislation directs the BIA to prepare and 
submit to the Congress a report detailing the history and experience of 
Indian tribes that have chosen to assume responsibility for 
administering the Indian Land Title and Records Office (``LTRO'') 
functions from the BIA. NAIHC believes the report will provide valuable 
insight into the challenges tribes have faced in assuming 
responsibility for the LTRO function, and at the same time illustrate 
``best practices'' for other tribes to consider implementing.
CONCLUSION
    The NAIHC strongly supports H.R. 205 because it respects and 
fosters Indian tribal sovereignty and decision-making, expedites what 
can often be lengthy Federal reviews and approvals, will improve the 
delivery of Federal housing assistance, and will expand economic 
opportunity in tribal communities.
    Thank you and if you have questions, I would be happy to answer 
them.
                                 ______
                                 
    Mr. Young. Thank you, sir. People want to know why we are 
keeping that door open back there. There is a terrible sound in 
this room when it is shut. I don't know if it is pressure or 
what, but it affects the acoustics of the room. So that door 
opens it up and lo and behold, maybe it is Halloween. I don't 
know. The balcony windows or something, I have no idea.
    OK, Mr. Lincoln McCurdy, President of the Turkish Coalition 
of America.

           STATEMENT OF LINCOLN McCURDY, PRESIDENT, 
                  TURKISH COALITION OF AMERICA

    Mr. McCurdy. Chairman Young, Ranking Member Boren, members 
of the Subcommittee, I want to thank you for inviting me to 
testify on H.R. 2362. I have provided a copy of my written 
testimony for the record along with letters from the Turkish 
Ambassador and the President of the Turkish-American Chamber of 
Commerce and Industry supporting this innovative legislation.
    In my verbal testimony I would like to highlight five key 
points. Point number one, jobs. H.R. 2362 is legislation that 
promotes job creation in Indian country, where unemployment 
ranges from 50 to 80 percent.
    Point number two, no Federal funds. This legislation does 
not rely on Federal funds. Turkish companies take the risk.
    Point number three, why Turkey. Turkey is Europe's fastest-
growing economy and ranks 16th in the world. Turkey's growth 
rate was second in 2010 to China. Turkish foreign direct 
investment exceeded $21 billion in 2010. Countries that 
received Turkish foreign investment also became some of 
Turkey's leading trade partners.
    Moreover, Turkey has the second largest construction sector 
in the world after China with more than 6,000 projects in 91 
countries, with project values exceeding $200 billion. Indian 
country can benefit from the dynamism of the Turkish private 
sector. Turkish companies are accustomed to working in 
challenging conditions.
    For example, you find Turkish construction projects in the 
Balkans, Russia, Central Asia, the Caucuses, the Middle East 
and Africa. In fact, Turkey has been the largest provider of 
employment opportunities in Russia, Turkmenistan, Egypt and 
Kazakhstan. In Egypt alone, Turkish companies created over 
40,000 jobs.
    Turkey's interest in investing in Indian country comes at a 
very opportune time as more tribes are looking for 
opportunities beyond U.S. borders. The educational and cultural 
ties between Indian country and Turkey can therefore quickly 
pave the way to economic relations that can help not only bring 
the U.S. and Turkey closer together but help tribes develop 
economically.
    New solutions need to be considered in addressing the 
economic woes in Indian country, and Turkey's economic success 
story can be a model. The U.S. has free trade agreements with 
various countries, and the concept of this bill is of the same 
principle but without adversely affecting U.S. industry.
    Turkey is an important NATO ally. The United States and 
Turkey are working together in promoting democracy in the 
Middle East, and with this bill our two countries will expand 
the partnership by working together and creating jobs in Indian 
country.
    Secretary Hillary Clinton just this week said we see 
Turkey's growing leadership holding great potential benefits. I 
am confident about the state of our alliance and the alignment 
of our interests, proud of what we have accomplished together 
and hopeful of what we will achieve in the future together.
    The Chairman of the Joint Chiefs of Staff, General Martin 
Dempsey, also called for the expanding of relations between the 
United States and Turkey.
    Point number four, benefits. Once H.R. 2362 becomes law, we 
firmly believe that the Turkish companies will seek to 
establish manufacturing and assembling operations on tribal 
lands. There are already discussions about joint venture 
projects in the leather sector.
    Point number five, what about American and other 
international companies. H.R. 2362 is a demonstration project 
and simply highlights Turkey as a starting point because of 
Turkey's interest in Indian country. If successful, this bill 
would pave the way for leasing reform across Indian country and 
would facilitate business with American and other international 
companies.
    Again, I would like to express my gratitude, Mr. Chairman, 
in being asked to testify on H.R. 2362. I strongly encourage 
the Committee to take quick action on this bill. Our country 
needs legislation that creates more jobs, and Indian country 
needs jobs. This pilot project is what we need at this time. 
Thank you.
    [The prepared statement of Mr. McCurdy follows:]

   Statement of G. Lincoln McCurdy, President, Turkish Coalition of 
 America, Inc., on H.R. 2362, ``The Indian Tribal Trade and Investment 
                  Demonstration Project Act of 2011''

Introduction
    Mr. Chairman and Members of the Subcommittee:
    I would like to thank Chairman Young and Ranking Member Boren for 
the privilege of testifying before the Indian and Alaska Native Affairs 
Subcommittee today, and more importantly, for taking up H.R. 2362, the 
Indian Tribal Trade and Development Act. This innovative legislation 
holds tremendous potential to reform the archaic leasing system that 
has hampered economic development on Tribal lands.
    The leasing system that's in place today requires multiple levels 
of review for every lease application on Tribal lands. At the end of 
the review process, each submission must then be approved by the 
Secretary of Interior. Even simple leases, therefore, can take up to 
six years to receive approval, whereas a similar process takes as 
little as six days on private land.
    H.R. 2362 aims to create a demonstration program for up to 6 tribes 
to develop their own leasing guidelines for economic transactions with 
Turkish companies. This legislation aims to expand reforms enjoyed by 
the Navajo Nation to a number of tribes during a yearlong demonstration 
period while capitalizing on the unique and genuine interest Turkish 
Americans and Turkish companies have shown in working with Indian 
Tribes, spurred by TCA's efforts to build bridges between Turkey and 
Indian Country.
Background on the Turkish Coalition of America
    I have served as president of the Turkish Coalition of America 
(TCA) since its founding in February 2007. TCA is a Washington, DC-
based nonprofit organization that aims to foster a better understanding 
of U.S.-Turkey relations and Turkish American issues through public 
education.
    Since its founding, TCA has established outreach to other minority 
communities in the United States as part of its core mission of 
increasing person-to-person ties between the U.S. and Turkey. To that 
end, TCA established a scholarship program in 2008 to provide funding 
for up to 100 scholarships per calendar year for Native American, 
African American and Hispanic American undergraduate and graduate 
students for study abroad in Turkey. TCA has so far awarded 177 
scholarships under the auspices of this program.
    TCA has sponsored several trips to promote its scholarship programs 
and to further educational exchanges between the United States and 
Turkey. In January 2009, TCA brought 22 educators from Tribal Colleges 
and Universities, Hispanic-Serving Institutions as well as Historically 
Black Colleges and Universities on an 8-day trip to Turkey. In June 
2009, TCA brought 6 professors from Turkish universities on an 8-day 
trip to visit Minority-Serving Institutions, including Tribal Colleges 
and Universities, across the United States. The trip included a visit 
to the Pine Ridge Indian Reservation.
    TCA's initial trips helped spur two leading Turkish universities to 
offer their own scholarship programs for American students. Bahcesehir 
University, a private social-sciences focused institution in Istanbul, 
offers 8 tuition scholarships per semester to Native American, African 
American and Hispanic American students, whereas Istanbul Technical 
University (ITU), Turkey's oldest university and a leader in 
engineering education in Europe, offers 10 comprehensive scholarships 
per semester--including tuition, lodging and a monthly stipend--
exclusively to Native American students. Another Istanbul-based private 
university, Ozyegin, has instituted a 4-week summer program focusing on 
language, history and literature to attract Native American students to 
Turkey who cannot commit to a semester-long program.
    As a result of TCA's and Turkish universities' efforts, the number 
of scholarship applicants among African American and Hispanic American 
students soared. In November 2009, TCA organized another trip, this 
time focusing solely on Native American educators to increase 
participation rates among their students. The 3-week Native American 
Lecture Tour brought 5 Native American educators to 12 colleges in 
Turkey.
    The lecture tour also coincided with a conference on Native 
American cultures and literature in Turkey, organized by Hacettepe 
University in Ankara. Held on November 16-17, `Native American Voices: 
Languages of Survival' drew hundreds of students and professors to 
presentations made by Hacettepe's own Native American studies faculty 
and TCA's guests.
    During a follow-up trip to Arizona in January 2010, I had the 
privilege of visiting the Hopi Tribe and the Navajo Nation in the great 
state of Arizona. The conditions on those reservations reminded me of 
the unrealized economic potential of Anatolian villages and other 
remote parts of Turkey I had witnessed while serving as a commercial 
officer in Istanbul in the 1980s. This trip confirmed the wisdom in 
TCA's approach. Having witnessed how Turkey managed to expand its 
economy to bring benefits to all corners of the country and became the 
16th largest economy in the world, I thought TCA could potentially 
facilitate trade and economic relations between Turkey and Indian 
Country to help spur development in pockets of America where it 
unfortunately lags.
    When I had the opportunity to discuss this potential partnership 
with our Native American friends, as well as then Turkish State 
Minister for Trade Mr. Zafer Caglayan, our project was received 
enthusiastically. In fact, Minister Caglayan agreed to meet with Native 
American representatives during his trips to Washington, DC, Los 
Angeles and Seattle. Moreover, he offered to meet with members of the 
first ever Native American Business Cooperation delegation to Turkey. 
Organized and sponsored by TCA, the Business Cooperation trip brought 
20 Tribal leaders and representatives from 17 Tribes in 11 states to 
Turkey in November 2010 on the inaugural Turkish Airlines direct flight 
from Washington, DC to Istanbul, Turkey. Participants not only got a 
chance to meet extensively with Minister Caglayan, but were also hosted 
by the Minister of Foreign Affairs, Dr. Ahmet Davutoglu. While in 
Turkey, they also participated in and presented at `Native American 
Voices: Tribal Echoes'--Hacettepe University's 2nd conference on Native 
American cultures and literature.
    The growing ties between Turkey and the Tribes paved the way to 
Turkish government's participation at 25th Annual Reservation Economic 
Summit (RES 2011) organized in March 2011 by the National Center for 
American Indian Enterprise Development (NCAIED). The government of 
Turkey became the first foreign nation to ever send an official 
delegation to the RES--the premier Native American economic and 
business development conference- which solidified their interest in 
doing business with Indian Country.
    In May, I was invited to speak at the Information Management 
Network (IMN)'s 12th annual conference on Native American Finance in 
Scottsdale, AZ. On May 16th, I gave a special presentation on 
`Opportunities to Establish Future Collaborations' and participated in 
a panel discussion on `Global Opportunities' to highlight Turkey as a 
viable partner for Tribes looking to do business beyond the U.S. 
borders.
    Since May, TCA has championed a number of other initiatives to 
further ties between Turkey and Indian Country. We recently facilitated 
a workshop organized and sponsored by the Istanbul Technical University 
(ITU) on infrastructure development. Held in Istanbul on October 18-26, 
the workshop enabled 5 Native American representatives to meet with 
ITU's leading engineering departments to be briefed on latest 
technologies and funding opportunities to foster infrastructure 
development. Workshop participants also got a chance to enjoy a private 
screening of On the Trail of Sitting Bull--a film about the history and 
living traditions of the Sioux by the Turkish documentary filmmaker Ms. 
Ece Soydam. Ms. Soydam, who was present at the screening to answer 
questions, is the only foreign director whose work is considered for an 
award at the 36th Annual American Indian Film Festival.
    ITU's guests also attended the opening of a special exhibit, 
`Native Americans: Memory of an Ottoman Connection,' featuring a 
selection of photographs presented by the Smithsonian Institute to 
Sultan Abdulhamid II in 1880s. The exhibition was co-organized by TCA 
and held at the Center for Islamic History, Art and Culture (IRCICA) in 
Istanbul. TCA is currently in dialogue with the Institute of American 
Indian Arts (IAIA) in Santa Fe, NM to organize an exhibit in Istanbul 
featuring modern American Indian art.
    TCA's efforts to build bridges to Indian Country has inspired other 
Turkish Americans to follow suit. A dynamic Turkish American group in 
New York has been organizing conferences to highlight cultural ties 
between the two groups and the Turkish American Chambers of Commerce 
and Industry (TACCI)--also based in New York--is ready, willing and 
able to facilitate trade between Turkish and Native American 
businesses.
Why Turkey: Efforts to Cultivate Educational, Political and Economic 
        Ties to Indian Country
    Turkey is rapidly becoming an economic powerhouse. Its GDP growth 
rate of 9 percent during the first half of 2011 exceeded that of even 
China. H.R. 2362, therefore, can boost the economies of participating 
Indian Tribes by attracting investments from one of the fastest growing 
and most dynamic countries in the world.
    Turkey's growing economy has come with an eagerness to invest 
beyond its borders. In 2008, for example, Turkey's foreign direct 
investment (FDI) surpassed 2.5 billion dollars. By the end of 2010, 
Turkey's investments from 2008 to 2010 had totaled 21.6 billion 
dollars.
    Turkey's outward investments have traditionally been in 
construction, mining, finance, manufacturing and technology/
communications sectors, all of which are labor intensive with 
tremendous potential to create new jobs on Indian lands. In fact, 
Turkey has been the largest provider of employment opportunities in 
Russia, Turkmenistan, Egypt and Kazakhstan. Turkey's exports to Egypt 
alone amounted to 2 billion dollars in 2010, creating over 40,000 jobs.
    Turkey's construction sector is worth a closer look. Second largest 
in the world, Turkish international contracting services have 
undertaken more than 6,000 projects in 91 countries with project values 
exceeding 200 billion dollars. Working in Russia, Libya, Turkmenistan, 
Kazakhstan, Iraq and Afghanistan, Turkish firms have crucial experience 
in some of the most challenging locations around the world.
    Turkey's aggressive FDI portfolio has paved the way to greater 
trade volumes with recipient countries. Consequently, countries that 
have received large Turkish investments have also become Turkey's 
leading foreign trade partners.
    Turkey's interest in investing in Indian Country comes at a very 
opportune time as more Tribes are looking for opportunities beyond U.S. 
borders. TCA's outreach to date, furthermore, has helped build a common 
understanding and mutual interest between Native Americans and Turks. 
The educational and cultural ties between Indian Country and Turkey can 
therefore quickly pave the way to economic relations that can help not 
only bring U.S. and Turkey closer together, but help Tribes develop 
economically without having to rely on U.S. Federal funds.
TCA's Brief Views of H.R. 2362
    H.R. 2362 holds great potential to capitalize on the interest 
Turkey has increasingly shown in working with the Tribal Nations. 
Furthermore, by allowing Tribes to exercise greater autonomy over the 
lands held in trust by the U.S. government, H.R. 2362 can spur economic 
development and create jobs in some of the nation's poorest areas 
without having to rely on funds from the financially strapped Federal 
government. H.R. 2362 is not only a goodwill gesture that acknowledges 
the monetary and time commitment various Turkish entities have so far 
made to Indian Country, but it is also a great opportunity to bring the 
United States and Turkey closer together. Turkey, as you know, is the 
second largest force in NATO and a long-standing ally.
What TCA Expects Post-Enactment
    Once H.R. 2362 becomes law, we firmly believe that Turkish 
companies, long eager to break into the U.S. market, will seek to 
establish manufacturing and assembly operations on Tribal lands. This 
remains our biggest motivation as such an approach would help reduce 
high unemployment rates on reservations while bringing U.S. and Turkey 
closer together. Consequently, such an arrangement can also turn 
certain designated areas within Tribal lands into distribution centers 
for broader trade in the Western Hemisphere.
Conclusion
    By reducing the bureaucratic burden on the participating Tribes, 
H.R. 2362 can turn Indian lands into attractive investment destinations 
for Turkish investors. Traditionally, Turkish firms have shied away 
from investing in locations with overwhelming bureaucracies, lack of 
legal assurances, limited labor force, as well as political and 
economic instability. H.R. 2362 therefore plays a pivotal role in 
reducing an important barrier to receiving Turkish capital.
    In sum, a solid foundation has already been built to nurture mutual 
understanding between Turkey and Indian Country. Now, H.R. 2362 remains 
a crucial step in improving conditions and eliminating physical 
barriers to welcoming Turkish investments to Indian Country.
    Moreover, this innovative and historic bill will bring the U.S.-
Turkey relationship to an entirely new level by accentuating joint 
commercial interests.
    Expanding trade between the United States in Turkey will not only 
complement the long-standing strategic partnership between the United 
States and Turkey, but will also enable Turkey's thriving economy to 
boost U.S. markets amid the ongoing global financial crisis. With this 
legislation, furthermore, Turkey can help bolster economic growth on 
otherwise underutilized Indian lands and reduce the participating 
Tribes' dependence on the U.S. Federal government for funding.
    In summary, I would like to re-emphasize the following points:
        <bullet>  U.S. and Turkey have been long-standing allies that 
        have not fully capitalized on their joint economic interests.
        <bullet>  With its economy booming, Turkey can help boost 
        stagnant economies on reservations across Indian Country, 
        thereby reducing Tribal dependence on Federal government 
        funding.
        <bullet>  Turkish investments have created tremendous job and 
        growth opportunities elsewhere and H.R. 2362 can help attract 
        some of the Turkish direct investment into Indian Country.
        <bullet>  Due in part to TCA's efforts to date, a solid 
        understanding and interest have already been built between 
        Turkish firms and Tribes. H.R. 2362 aims to capitalize on the 
        existing mutual enthusiasm by reducing barriers to investing in 
        Tribes.
    Chairman Young and Members of the subcommittee, I thank you again 
for the opportunity to testify before you on this important issue 
today.
                                 ______
                                 
    Mr. Young. Thank you, Mr. Lincoln McCurdy. As customary, I 
am going to yield to the Ranking Member for questions first.
    Mr. Boren. Thank you, Mr. Chairman. I have just got a 
couple of questions for the panel, and let me start with Mr. 
Black. As you know, there have been discussions about adding 
amendments to the HEARTH Act to clarify policy in regards to 
environmental concerns. Would the Bureau continue to support 
this bill with the proposed amendments? Have you looked at all 
of those?
    Mr. Black. I haven't seen all of the proposed amendments, 
Mr. Congressman, but the language as it is written is being 
supported strongly by the Administration at this time. And we 
have seen some additional language that we are not necessarily 
opposed to either.
    Mr. Boren. Another question for you. H.R. 205 requires the 
Secretary to approve tribal regulations before a tribe can 
commence leasing activities on its own.
    The bill sets forth certain parameters for approval, 
specifically that tribal regulations must be consistent with 
the Department's own regulations. But what if a tribe seeks to 
engage in activities that the Department does not have specific 
regulations, such as a residential lease, that govern those 
activities? Will the tribe need to come up with those type of 
regulations on its own or kind of defer to the BIA? How would 
that work?
    Mr. Black. OK. Currently, under 25 C.F.R. Part 162, our 
regulations address agricultural and nonagricultural leases. 
The residential leases, as mentioned, would fall under the 
nonagricultural portion of that as long as those would be 
consistent with that.
    Under our new proposed regulations, we do develop specific 
regulations pertaining to residential leases. And the tribal 
regulations, that could be used as a framework or a model in 
the development of the tribal regulations.
    Mr. Boren. OK. Since we have a little time left, I want to 
go to Chairman Berrey, your testimony on Mr. Cole's bill. In 
your written statement you indicate that tribal leaders have 
worked with TCA to develop a better understanding of the types 
of projects that might be undertaken. Can you give us some 
examples of potential projects or things when you went on your 
trip that you kind of visited about?
    Mr. Berry. Sure. There are a couple things that I focused 
on since I went on the trip. One is construction. The Quapaw 
Tribe is currently working with Manhattan Construction in 
Oklahoma to look at teaming together and working with 
construction companies in Turkey to joint-venture on some 
projects, whether they are in the United States or in the 
Middle East. We are trying to get them together to see if there 
is some potential in working together.
    And then we have been also working on trying to source 
hides and leather products for the Turkish market. There is a 
large demand for more hides worldwide. And because so many 
reservations in the United States have a lot of Native American 
cattlemen, we thought there is an opportunity there to provide 
hides from the Native American producers to the Turkish market.
    Mr. Boren. Those are great examples. Again, thank you for 
your testimony. I have one left, a little over a minute and a 
half, for Floyd there next to you. I have a question for you.
    Do you have a general sense of how many tribes have the 
administrative capacity to conduct their own leasing activities 
in reliance on their own regulations? Can you give us a couple 
of examples of tribes that currently have such a capacity? I 
think it was mentioned earlier, Navajo, a while ago, over a 
decade, have been.
    But other tribes, you know, we have a lot of tribes out 
there, certainly some smaller, some larger and each with 
different capacities to handle these regulations.
    Mr. Tortalita. There are many tribes throughout the United 
States that have built this capacity. Again now, with many of 
the self-determination programs that are out there, many tribes 
are building that capacity.
    For one, I can speak on behalf of the Pueblo of Acoma, 
which I am part of. We have that capacity. We are one that 
would be a good representation of many of the tribes out there. 
We do maintain a land office, which keeps the records of all of 
the land, of all the lands of the Pueblo, whatever status they 
may be in.
    Land assignments to tribal members, it keeps that identity 
for them. It maintains all of the land records for the Pueblo 
of Acoma. So they have built that capacity of maintaining and 
administering the land statuses and any of the land issues that 
we do have for the Pueblo. Many tribes have built that 
capacity. Many tribes have that capacity to administer such 
programs.
    Mr. Young. Thank you, gentlemen. Mr. Kildee.
    Mr. Kildee. Thank you, Mr. Chairman. Pardon my voice, I 
will try to be heard.
    Mr. Black, do the majority of the other Indian tribes and a 
group like NCAI generally support both H.R. 205 or H.R. 2362, 
or are there conflicting elements in those bills that would 
have to be resolved?
    Mr. Black. Quite honestly, sir, I don't believe there is 
any strong opposition in Indian country to either one of these 
bills. I can't really speak as much to H.R. 2362, but H.R. 205, 
the HEARTH Act, has had pretty strong support from my 
understanding throughout Indian country.
    Mr. Kildee. Thank you very much. When you deal with kind of 
a tri-government operation like this with the Indian sovereign 
government and the United States sovereign government and the 
Turkish Government, do you consult any with the U.S. State 
Department on a bill like H.R. 2362?
    Mr. Black. Sir, I don't have an answer for that. I would 
have to get back to you on that one.
    Mr. Kildee. OK. If you could get an answer for us, I would 
appreciate that.
    Mr. Black. Yes, sir.
    Mr. Kildee. Thank you, Mr. Chairman.
    Mr. Young. Eni.
    Mr. Faleomavaega. Mr. Chairman, thank you for calling this 
hearing, and our Ranking Member. I have taken a real interest 
in reading some of the statements, and I do want to say for the 
record I fully support my good friend's proposed bill in H.R. 
205, but I do have some interesting questions, at least to me 
they are interesting questions, about H.R. 2362.
    First of all, I want to personally commend the Turkish 
Government for the interest that it has taken with all its 
resources and the institutions that it is trying to work and 
dealing with our Native American community. And it always seems 
to be the repeating question, why Turkey?
    I am very curious if Mr. Lincoln, if he is any relation to 
my good friend, David McCurdy.
    Mr. McCurdy. I have been asked that many a time. No, we are 
not. My side of the family comes from Pennsylvania.
    Mr. Faleomavaega. Oh, I thought you were from Oklahoma as 
well. But anyway, if you see Mr. McCurdy, please give him my 
regards. He is a dear friend, and he formerly served as a 
member of this Committee I believe.
    As I have said earlier, I commend the Turkish Government 
for its efforts to not only provide economic but as well as 
educational opportunities for our Native American communities. 
And the question is, and I want to ask Mr. Black this question, 
you mentioned earlier in your testimony that there are other 
foreign governments that have had dealings with tribal 
governments where the Department is already in the process or 
have been actively engaged in, whether it is leasing or 
whatever it is, in this relationship.
    And I ask, there are 197, 198 other countries in the world. 
And not to take anything away from the initiative in terms of 
Turkey as a good example of working with our Indian tribes, the 
question is, can't we just say any country that has the 
capacity similar to what Turkey has been doing with our tribes 
should also become as a qualifier or the one that could 
participate as well so that we won't have to be coming every 
time that another country may have a same, similar expression 
like Turkey, that we have to pass another piece of legislation? 
Or can it be done in a generic way, any country that wants to 
come and do this so that it falls within the parameters of the 
principles that this proposed bill tries to accomplish? Mr. 
Black?
    Mr. Black. As I stated in my testimony, that it is our 
belief that the HEARTH Act has many of the same provisions that 
would allow for exactly what you are saying I think.
    Mr. Faleomavaega. And I could fully appreciate Mr. 
McCurdy's statement, saying that it is just unbelievable, 
whether it is because of the bureaucratic maze that the tribes 
have to go through, where the leasing takes six years? And if 
it was done through a private entity, only six days? I mean, 
this is ridiculous.
    But I suppose that, Mr. Black, you can probably assist us 
by streamlining the procedure so that these tribes don't take 
six years to get lease approvals or whatever it is that needs 
to be done with the Department.
    Mr. Black. Yes, sir, that is largely one of the main 
driving factors in the development of our new regulations was 
to try to start eliminating, streamlining and providing a more 
clear and consistent regulation dealing with all of the 
different types of leases that we have and identifying specific 
timeframes for the review and approval process, which currently 
aren't in our regulations.
    Mr. Faleomavaega. But is my question out of context in 
terms of what I am saying is that can we make adjustments to 
the bill so that countries like Turkey or any other country 
that may want to come and commit itself to resources in 
developing and giving assistance to our tribes, can this be 
done without having to be so specific? Would it be wrong for me 
to suggest that if, after Turkey, what happens if another 
country--maybe Israel, maybe Germany, maybe some other ones--
will we have to go through the legislative process every time 
another country comes in? Mr. Black?
    Mr. Black. Sir, if you wouldn't mind, I would like to be 
able to formulate a better response and get back to you on that 
one.
    Mr. Faleomavaega. OK. But this is not taking anything away 
from Turkey, which I fully admire and respect in its efforts to 
give assistance to our tribal governments. I have 100 other 
questions, Mr. Chairman, but I think I better--I thank you for 
the 24 seconds I guess.
    Here is the key to something that is too dear to my heart. 
We have 47,000 Native American students attending, over 100 BIA 
students, from K to grade 12. My question, where do they go 
from there? What is the level in terms of their pursuits in 
getting a college education? I notice the Turkish Government is 
offering scholarships. And my time is up. Thank you, Mr. 
Chairman. Gee, whiz.
    Mr. Young. Thank you.
    Mr. Faleomavaega. Can I, just one statement, Mr. Chairman?
    Mr. Young. Oh, absolutely. And then I am going to rap the 
gavel, but you have one more shot.
    Mr. Faleomavaega. OK. One thing that I love so much 
recently, and I say God bless her heart, she passed. Mrs. 
Cobell, who had worked so hard. Part of that settlement as I 
understand is that there is supposed to be a $16 million 
scholarship fund that is going to come out of that funding 
where they are supposed to provide scholarships and 
opportunities for Native American students. And I am curious 
if, Mr. Black, a decision has been made in finding out who this 
funding is going to be taken out for.
    My time is up. Thank you, Mr. Chairman.
    Mr. Young. Mr. Lujan.
    Mr. Lujan. Mr. Chairman, thank you very much to yourself 
and to Ranking Member Boren for bringing us here today and to 
my colleague as well, Congressman Heinrich of New Mexico, and 
Congressman Cole, Mr. Chairman, for their presence today as 
well. It is always nice to have a friend from New Mexico, and 
our friend, Mr. Tortalita, from Acoma Pueblo. So it is always 
good to see you and to welcome you as well to our proceedings 
here. You are always so kind and generous, inviting us in when 
we have a chance to visit home as well, so I thank you for 
that.
    Mr. Chairman, specifically to Mr. Black. H.R. 205 requires 
the Secretary to approve tribal regulations before a tribe can 
commence leasing activities on its own, and the bill sets out 
certain parameters for approval, specifically that tribal 
regulations must be consistent with the Department's own 
regulations.
    But what if a tribe seeks to engage in activity that the 
Department does not have specific regulations, such as 
residential leases, that govern those activities? Would the 
tribe need to come up with those types of regulations on their 
own? I think we have touched on it, but I just want to be clear 
on it.
    Mr. Black. Well, as I stated before, Mr. Congressman, you 
know, we do have our nonagricultural-specific sections in Part 
162. It does not clearly identify the home site leases 
themselves, but as long as it is consistent with that, they 
could develop their own regulations to do so.
    But under the new proposed regulations, we do have specific 
residential sections within those regulations that a tribe 
could adopt or be consistent with those.
    Mr. Lujan. And I appreciate very much the questions from my 
colleague, Mr. Faleomavaega, and I share some of those same 
questions. Mr. Black, your response to one of them raises a 
question. Does the HEARTH Act accomplish the goals of H.R. 
2362?
    Mr. Black. I can't say that, you know, personally that it 
accomplishes all the goals. I believe that provisions of H.R. 
205 on the face of it would probably meet the goals of H.R. 
2362 in allowing, you know. There are no restrictions in H.R. 
205 that I see that would restrict another government or 
another country doing business in the United States from 
entering into leases with Indian tribes.
    Mr. Lujan. Very good. And in your written statement you 
indicate that the Administration believes that H.R. 205 will 
promote among other industries renewable energy on Indian 
lands. How can the authorities under the HEARTH Act better 
encourage renewable energy development than the authorities 
under existing law?
    Mr. Black. Under the HEARTH Act, the tribes are able to 
develop their own regulations, which will add additional 
flexibility to what they can do and possibly make their lands 
more attractive to promoting industry in making the regulations 
more friendly or flexible in how they are dealing with 
renewable energy companies.
    Mr. Lujan. And are there any concerns associated with 
potential partnerships down the road with other nations in the 
gaming arena? Does that have to be addressed here, or is that 
something that does not need to be addressed because it is 
addressed elsewhere?
    Mr. Black. I don't think it has to be addressed as part of 
this HEARTH Act.
    Mr. Lujan. Thank you very much, Mr. Chairman. I very much 
appreciate the time today.
    Mr. Young. Thank you, sir. Martin.
    Mr. Heinrich. Thank you, Mr. Chairman. Vice Chairman 
Tortalita, I want to ask a question just regarding one of the 
concerns that I hear raised again and again is that families 
sometimes choose to move off reservations and oftentimes into 
communities that are substantially geographically distant from 
their home communities because it is easier to buy a home in 
Grant or in Albuquerque than it is in Acoma or Laguna or their 
home, Pueblo.
    Can you just talk a little bit about why it is important 
for your community for families to be able to continue to live 
on their home, Pueblo?
    Mr. Tortalita. Yes. It has provided a large obstacle again 
for many families, the time that it takes again to put the 
lease together. Again, imagine if a six-month to 24-month cycle 
was the process that was there in the private sector to close 
on a home loan. To close on that, could you imagine taking two 
years to close, what that would do to the housing market right 
now?
    For many tribes, like at the Pueblo of Acoma, we are trying 
or we are starting to look at building an economy. How do we 
start to develop an economy? And housing is the key, it is the 
basis is to develop that economy.
    Again, what is always said from our tribal leadership is 
they tell our young people go out and get an education, learn 
what you can and come home and bring it to us. Well, many 
people do that, but now it is very difficult to get housing on 
the reservation.
    Again, if I were to take just a regular straight loan, we 
can do it at 12 percent, get a 12 percent home loan; I mean, 
that would be kind of crazy. But going through the 184, which 
requires certain leases, certain documents in place, it could 
take right now six months to two years to get that lease.
    So the quickest way to get a home is to move into 
Albuquerque, to move into Grant. Now again, trying to develop 
that economy within the reservation, it starts to hinder that 
process because many of those professional people are moving 
out, taking their expertise and skills away from the 
reservation and again now leaving the reservation behind 
because they are away from the reservation.
    Mr. Heinrich. Thank you, Vice Chairman. Mr. Chairman, I 
yield back.
    Mr. Young. Well, again, I want to thank you for introducing 
this bill because that was one of my pet peeves when I found 
out it took years to get--a tribe agrees to it, can't get a 
loan because the BIA didn't do it. I am glad Mr. Black--by the 
way, I am not going to pick on you because I think you are 
trying--you are just in a morass of bureaucracy, and if we can 
help you out with this legislation, I will gladly do that.
    You mentioned the HEARTH Act lets the tribes write 
regulations a little more flexible than existing regulations, 
is that correct? Is that what you said?
    Mr. Black. I think it gives them the opportunity to do 
that, sir, as long as they are consistent with our regulations 
pertaining to that.
    Mr. Young. OK. Now my biggest challenge, and this is 
something that has been a pet peeve of mine, regulations beget 
regulations beget more regulations beget more regulations 
because when you write a regulation and the tribe writes a 
regulation to meet your needs, you can change your regulations. 
I would like to have some permanency when they write these 
regulations if you follow what I am saying.
    Mr. Black. I do, sir.
    Mr. Young. Because that is something very important. This 
legislation hopefully will have it in it so that once they meet 
the agreement with you and with the other agencies, you can't 
willy nilly--the EPA is famous for this by the way, changing a 
regulation after the fact. And that puts a terrible burden on 
the tribes, and it is mostly not justified; it is somebody 
making work.
    You said, Mr. Black, timeframe, one year wasn't long 
enough? Why would not one year be long enough to issue permits 
or whatever that you were talking about?
    Mr. Black. No, I was talking about the Turkish bill, H.R. 
2362, sir. And according to that bill, in order for a tribe to 
be able to participate under this bill, they had to actually 
enter into a lease within a one-year timeframe of the enactment 
of the bill. And that would require, you know, them developing 
the regulations, being approved under the Department, actually 
having the lease negotiated and entered into with the party 
involved in that lease. There were some other provisions in 
ensuring that they met the audit requirements. And all of that 
would have to be done within a one-year timeframe. We are just 
concerned that we wouldn't be able to meet that.
    Mr. Young. Well, that is my biggest concern. What would be 
the right timeframe? Not two years?
    Mr. Black. I would most certainly hope not, sir, but we 
would be more than happy to work with the Committee to look at 
that.
    Mr. Young. OK. Give me an answer because I don't want this 
thing to get bogged down again in regulation inactivity. That 
is what has happened. I heard the gentleman, Floyd--I can't 
pronounce your last name, I do apologize--you said it took was 
it six years?
    Mr. Tortalita. It takes anywhere from six months to two 
years to get the documents in place.
    Mr. Young. OK. Now were you working with the BIA office 
across the street from you?
    Mr. Tortalita. Yes, we were actually 15 feet from them.
    Mr. Young. Now was that where the roadblock was, or was it 
in Washington, D.C.?
    Mr. Tortalita. It was the process in getting the approval 
from the Secretary. From the time we submit to the BIA office, 
which was the Agency office right next door, I can honestly say 
I am not sure exactly what channels it goes through once it is 
submitted to the BIA. I just wait for the information to come 
back to me from the BIA.
    So from the time it leaves my office to the BIA, I don't 
know what channels are there, what other red tape. I am 
assuming there are other channels and a lot of red tape it must 
go through if it is going to take 24 months to get through its 
process and back.
    Mr. Young. Yes. That is what we are trying to do with these 
two pieces of legislation, expedite that process.
    I believe Mr. McCurdy, in your written remarks you 
mentioned you visited the Navajo and Hopi reservations. What 
similarities did you see there between the Turkish village and 
the reservations?
    Mr. McCurdy. I had the great honor of traveling in Navajo 
lands and Hopi lands in January of 2010, and the landscape is 
almost identical to Anatolia. And the Turkish people have 
developed Anatolia since the establishment of the Republic, so 
the problems confronting the Hopis and the Navajos are issues 
that the Turks have overcome and bringing prosperity to the 
countryside in Anatolia. So I think the Turkish people have a 
lot to share with the Native Americans there.
    Mr. Young. Well, I think Eni brought up a good point about, 
I am all for the Turks because I sort of like them to have a 
leg up because they were the first interested. And I have to 
mention this to you, Mr. McCurdy. You can check in with my 
Chiulista Corporation in Alaska; it is a Native corporation. I 
am putting a little plug in now. Don't worry.
    [Laughter.]
    Mr. Young. They have a grand idea that will work. You know, 
we are going to start working with our climate instead of 
against it. Facebook, Google, all these huge internet 
operations, they have to pay to cool their buildings off. And I 
am saying my Natives have the land and they have the natural 
cooling capability.
    It is a good thing. I mean, take a little time to go look, 
you know, tell the Turks to do that because it is a way that we 
can set up this fighting the climate--work with the climate, 
because this computer age, you don't realize how much energy it 
takes to keep the computers cool. And so just keep that in 
mind.
    Last, I will say one thing about the Turkish people. My 
connection with them is very limited. But during Korea, the one 
U.N. force that was the most feared was the Turkish troops. The 
Chinese were extremely frightened of them. I liked that. 
Believe me, I liked it a lot.
    These are two good pieces of legislation. Mr. Black and all 
of you, we will be working with it. I think they are pretty 
well put together. If there are some things you think you want, 
get it to the staff on both sides of the aisle and let us see 
if we can't move this legislation relatively quickly because 
all of you mentioned the need for it. We know the problems on 
the reservations. We are working on our legislation. We have to 
try to eliminate these problems, quick leasing, development of 
natural resources, employment.
    And I love you for saying housing because we have found 
this even in Alaska. If I don't have housing in the clinics we 
build, I can't keep the doctors and the nurses. If I don't have 
housing, I can't keep the VOPs. Housing is a key to keeping 
your people available who have that education. Otherwise, they 
are going to go to the big city. Our biggest villages in Alaska 
now are Anchorage and Fairbanks because we don't have the 
capability when they come back to keep them on the land which 
is theirs, and that is not the right thing.
    Any other questions? Yes, Eni.
    Mr. Faleomavaega. Mr. Chairman, I just have one question 
that I want to certainly ask our panel for a response.
    I have served as a member of the Foreign Affairs Committee 
now for over 20 years and see how the movements have been in 
transitioning of different governments from all different 
regions of the world. I am being selfish to the extent that I 
want absolute assurances that our Indian communities aren't 
going to be given any problems in case there is some political 
uncertainty in those regions and any of those countries that 
our tribes may be dealing with.
    I am not taking anything away from Turkey, but they live in 
a very tough neighborhood. In fact, it is a very, very 
sensitive area where our foreign policies are hiding part of 
the mix that is going on right now in the Middle East with 
Syria. And we are having strained relations with Turkey too in 
many aspects because of dealing with Israel.
    So what I am saying is that this is an area that I wanted--
and I thank my good friend, Mr. Kildee, for asking Mr. Black do 
you conduct consultations with our State Department because 
this ties in on a government-to-government relationship, what 
is our foreign policy to those entities. And like I said, I am 
not saying that Turkey is our enemy. I am just saying that 
things change as they come. We may be friends today and we may 
be enemies tomorrow. You know, the next thing you hear the 
enemy of my enemy is my friend.
    So I just wanted to put that little sense of caution, that 
sometimes we look and I think Mr. McCurdy's foundation is doing 
a fantastic job. I wish I had a foundation that had a $30 
million operating fund in terms of all the things that you are 
doing for the good of our Native American tribes, and I commend 
you for that. But I just want to make sure that in the years to 
come we don't know what is going to happen, nothing is for 
sure. But in dealing with foreign governments, this is just 
something I just wanted to pass on. And I think Mr. Berrey may 
have a comment.
    Mr. Berry. Yes, sir. Thank you, sir. I have just been 
listening to the conversation that has been taking place, and 
there is still this sort of war mentality I am hearing from the 
Bureau. You know, the Quapaw Tribe just within the last few 
years, we have raised over $600 million on Wall Street. We do 
leases, we do business contracts on a daily basis. This is just 
a pilot project to let tribes like mine prove themselves to be 
able to do a lease that is typical in other segments of the 
world.
    Mr. Faleomavaega. What I would like to just, Mr. Berrey, I 
didn't mean to interrupt you, why do you have to prove it as a 
pilot project if you already have the capability and capacity 
to do the work that you are most capable of doing?
    Mr. Berry. Because of the delays that are currently there 
within the Bureau. And even though they may be rewriting the 
policies and procedures of the regulations now, we want to act 
today, not tomorrow, when they are going to complete the 
process. And we think this pilot project offers that 
opportunity, and we are not going to sign a lease that is going 
to create liability for the tribe or for the U.S. Government.
    Mr. Faleomavaega. But why not just say not just six tribes, 
let us just say any tribe that qualifies whatever measurements 
or whatever requirements that can be made should function and 
not say well, we are going to use only six tribes just as a 
starter? I suggest that we ought to just go right ahead and do 
it.
    Mr. Berry. Well, I think that is a great idea, and I would 
support that. But I think if we start with a small bite, show 
the progress and the success of the process, then it is easier 
to step into a broader environment.
    You know, the tribes are going to be protective of their 
assets and of any potential liability that may be created for 
not only the tribe but for the Secretary. So all we are asking 
is the Secretary to step back a little bit and let us enter 
into these leases so we can provide an economic environment 
that will produce some dollars for our people. We are not going 
to give away the farm just to let the Turks come in and build 
something. We want to create an opportunity with a government 
that is willing to bring people in an investment and just take 
a hold, do a pilot project, get success and then move forward.
    Mr. Faleomavaega. Thank you, Mr. Chairman. I think Mr. 
McCurdy may have a comment in reply.
    Mr. McCurdy. Thank you, Mr. Congressman. I just want to 
add, you mentioned about the State Department. The U.S. 
Ambassador and the U.S. Embassy have been fully briefed about 
this bill by the Turkish Coalition of America. And the U.S. 
Government promotes U.S. investment big time in Turkey and they 
would like to see greater Turkish investment in the United 
States to increase.
    Turkey is one of the few countries in the world where the 
U.S. has a favorable balance of trade, and so there are efforts 
trying to balance that a bit more and there is an effort trying 
to encourage Turkish investment in the United States.
    Mr. Faleomavaega. Thank you, Mr. Chairman.
    Mr. Young. I appreciate those comments, and I want to thank 
the panel. I mean, I think we are all on the same page here, 
and we will see if we can't get these pieces of legislation 
moving. I am still working. I have some ideas on my Empowerment 
Act. I hope you have been contacted. It was big, and now it has 
gotten little. Little is good I think, you know, simple.
    I want to thank the Committee. This meeting is adjourned.
    [Whereupon, at 4:05 p.m., the Subcommittee was adjourned.]

    [Additional material submitted for the record follows:]

    [The prepared statement of Mr. Markey follows:]

     Statement of The Honorable Edward J. Markey, Ranking Member, 
       Committee on Natural Resources, on H.R. 205 and H.R. 2362

    Thank you, Mr. Chairman.
    There is no doubt that new business opportunities should be made 
available to Indian tribes and that leasing of their trust lands for 
certain purposes, independent of the Secretary's approval, is good 
policy aimed at achieving that goal. I commend Mr. Heinrich for 
introducing H.R. 205, a bill that would authorize willing Indian tribes 
to manage leasing activities on their own lands without unnecessary and 
burdensome federal oversight.
    Versions of H.R. 205 have been introduced and considered by the 
Natural Resources Committee since 2009, but none have been acted upon 
by the Congress for a variety of reasons, most notably the uncertainty 
regarding how to strike the right balance between economic development 
and providing for adequate environmental review associated with that 
development on tribal trust lands. Accordingly, this Subcommittee's 
Minority staff has worked with Mr. Heinrich's office, as well as 
national and regional tribal organizations including the National 
American Indian Housing Council, to strike this balance. We are 
confident that enhancement of the bill to provide for an environmental 
review process that enables tribes to meet or exceed federal standards 
already in place, as well as provides for tribes to seek the 
Secretary's technical assistance to tailor such process to their own 
business development needs, will improve an already excellent bill and 
advance its passage by the House.
    Subcommittee Majority and Minority staff has discussed the 
possibility of an agreed-upon future amendment of the bill reflecting 
these changes, and I hope that I may rely on the chairman's full 
cooperation to that end.
    Thank you. I yield back.
                                 ______
                                 
    [A letter submitted for the record by His Excellency Namik 
Tan, Ambassador, Republic of Turkey, on H.R. 2362 follows:]

[GRAPHIC] [TIFF OMITTED] T1118.001

    [A letter submitted for the record by Turkish American 
Chamber of Commerce and Industry, on H.R. 2362 follows:]

[GRAPHIC] [TIFF OMITTED] T1118.002

                               <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
